Audit Report




OIG-14-050
Report on the Bureau of the Fiscal Service Funds Management
Branch’s Description of its Trust Funds Management Processing
Services and the Suitability of the Design and Operating
Effectiveness of its Controls for the Period August 1, 2013 to
July 31, 2014
September 23, 2014




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             September 23, 2014


            MEMORANDUM FOR SHERYL MORROW, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audit

            SUBJECT:               Report on the Bureau of the Fiscal Service Funds Management
                                   Branch’s Description of its Trust Funds Management
                                   Processing Services and the Suitability of the Design and
                                   Operating Effectiveness of its Controls for the Period August
                                   1, 2013 to July 31, 2014


            I am pleased to transmit the attached Report on the Bureau of the Fiscal Service
            (Fiscal Service) Funds Management Branch’s Description of its Trust Funds
            Management Processing Services and the Suitability of the Design and Operating
            Effectiveness of its Controls for the period August 1, 2013 to July 31, 2014. Under
            a contract monitored by the Office of Inspector General, KPMG LLP (KPMG), an
            independent certified public accounting firm, performed an examination of the
            description of controls, the suitability of the design, and the operating effectiveness
            of the general computer and trust funds management processing controls used for
            various Federal and State Government agencies’ (program entities) transactions for
            the period August 1, 2013 to July 31, 2014. The contract required that the
            examination be performed in accordance with generally accepted government
            auditing standards and the American Institute of Certified Public Accountants’
            Statement on Standards for Attestation Engagements Number 16, Reporting on
            Controls at a Service Organization.

            In its examination, KPMG found in all material respects:

                •   the Description of Controls Provided by Fiscal Service fairly presents the
                    general computer and trust funds management processing controls that were
                    designed and implemented throughout the period August 1, 2013 to July 31,
                    2014,
Page 2


   •   the controls related to the control objectives stated in the description were
       suitably designed to provide reasonable assurance that the control objectives
       would be achieved if the controls operated effectively throughout the period
       August 1, 2013 to July 31, 2014, and program entities applied the
       complementary program entity controls contemplated in the design of Fiscal
       Service’s controls throughout the period August 1, 2013 to July 31, 2014,
       and
   •   the controls tested, which together with the complementary program entity
       controls, if operating effectively, were those necessary to provide reasonable
       assurance that the control objectives were achieved, operated effectively
       throughout the period August 1, 2013 to July 31, 2014.

In connection with the contract, we reviewed KPMG’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an examination of the description of controls, the suitability of the design, and
the operating effectiveness of controls in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we
do not express, an opinion on Fiscal Service's description of controls, the suitability
of the design of these controls and the operating effectiveness of controls tested.
KPMG is responsible for the attached independent service auditors’ report dated
September 18, 2014, and the conclusions expressed in the report. However, our
review disclosed no instances where KPMG did not comply, in all material respects,
with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audit at
(202) 927-5076.

Attachment
                  U.S. Department of the Treasury
                    Bureau of the Fiscal Service



                    Funds Management Branch
                      General Computer and
                  Trust Funds Processing Controls




Report on Funds Management Branch’s Description of Its Trust Funds
Management Processing Services and the Suitability of the Design and
              Operating Effectiveness of Its Controls
           For the Period August 1, 2013 to July 31, 2014
                                 U.S. DEPARTMENT OF THE TREASURY
                                   BUREAU OF THE FISCAL SERVICE
                                     FUNDS MANAGEMENT BRANCH

 REPORT ON FUNDS MANAGEMENT BRANCH’S DESCRIPTION OF ITS TRUST
FUNDS MANAGEMENT SERVICES AND THE SUITABILITY OF THE DESIGN AND
            OPERATING EFFECTIVENESS OF ITS CONTROLS


                                                      Table of Contents

Section                                                   Description                                                                            Page

   I. Independent Service Auditors’ Report Provided by KPMG LLP .......................................... 1

 II.   Management’s Assertion ............................................................................................................. 5

 III. Description of Controls Provided by the Bureau of the Fiscal Service .................................. 11

       Overview of Operations ................................................................................................................ 12

       Relevant Aspects of the Control Environment, Risk Assessment, and Monitoring...................... 16

               Control Environment ........................................................................................................... 16
               Risk Assessment.................................................................................................................. 16
               Monitoring........................................................................................................................... 17

       Information and Communication .................................................................................................. 18

       Control Objectives and Related Controls
           The Bureau of the Fiscal Service (Fiscal Service) control objectives and related
           controls are included in Section IV of this report, “Control Objectives, Related
           Controls, and Tests of Operating Effectiveness.” Although the control
           objectives and related controls are included in Section IV, they are,
           nevertheless, an integral part of Fiscal Service’s description of controls.

       Complementary Program Entity Controls..................................................................................... 20

       Sub-service Organizations ............................................................................................................ 22

 IV. Control Objectives, Related Controls, and Tests of Operating Effectiveness ....................... 26

       General Computer Controls .......................................................................................................... 27

               System Software.................................................................................................................. 27
               Vendor Software ................................................................................................................. 30
               Program Change Control..................................................................................................... 32
               Physical Access ................................................................................................................... 34
               Logical Access .................................................................................................................... 37
             Computer Operations .......................................................................................................... 40
             Network Performance Monitoring ...................................................................................... 42

     Trust Funds Management Processing Controls............................................................................ 43

             Procedures .......................................................................................................................... 43
             Receipts Processing ............................................................................................................. 44
             Investment Requests............................................................................................................ 49
             Investment Income .............................................................................................................. 52
             Redemption Requests .......................................................................................................... 54
             Disbursement Processing .................................................................................................... 56
             Records Maintenance .......................................................................................................... 60
             Reporting ............................................................................................................................. 62
             Unemployment Trust Funds Title XII of the Social Security Act Advances Program ....... 65

V.   Other Information Provided by the Bureau of the Fiscal Service .......................................... 67

     Contingency Planning ................................................................................................................... 68
I.   INDEPENDENT SERVICE AUDITORS’ REPORT
             PROVIDED BY KPMG LLP




                      1
                                KPMG LLP
                                1676 International Drive
                                McLean, VA 22102




                                  Independent Service Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service
Deputy Commissioner, Fiscal Accounting and Shared Services


Scope
We have examined the Bureau of the Fiscal Service (Fiscal Service) Funds Management Branch’s
description of its general computer and trust funds management processing controls used for processing
Program Entities transactions throughout the period August 1, 2013 to July 31, 2014 (description) and the
suitability of the design and operating effectiveness of controls to achieve the related control objectives
stated in the description. The description indicates that certain control objectives specified in the
description can be achieved only if complementary Program Entity controls contemplated in the design of
Fiscal Service’s controls are suitably designed and operating effectively, along with related controls at the
service organization. We have not evaluated the suitability of the design or the operating effectiveness of
such complementary Program Entity.
Fiscal Service uses external service organizations (sub-service organizations). The description in Sections
III and IV includes only the control objectives and related controls of Fiscal Service and excludes the
control objectives and related controls of the sub-service organizations. Our examination did not extend to
controls of sub-service organizations.


Service organization’s responsibilities
In Section II, Fiscal Service has provided an assertion about the fairness of the presentation of the
description, the suitability of the design and the operating effectiveness of the controls to achieve the
related control objectives stated in the description. Fiscal Service is responsible for preparing the
description and for the assertion, including the completeness, accuracy, and method of presentation of the
description and the assertion, providing the services covered by the description, specifying the control
objectives and stating them in the description, identifying the risks that threaten the achievement of the
control objectives, selecting and using suitable criteria, and designing, implementing, and documenting
controls to achieve the related control objectives stated in the description.
The information in Section V of management’s description of the service organization’s system, “Other
Information Provided by the Bureau of the Fiscal Service,” that describes contingency planning is
presented by management of Fiscal Service to provide additional information and is not a part of Fiscal
Service’s description of its system made available to Program Entities during the period August 1, 2013 to
July 31, 2014. Information in Section V has not been subjected to the procedures applied in the
examination of the description of the system and of the suitability of the design and operating effectiveness
of controls to achieve the related control objectives stated in the description of the system, and,
accordingly, we express no opinion on it.



                                                                       2
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Service auditors’ responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description, the
suitability of the design and the operating effectiveness of the controls to achieve the related control
objectives stated in the description, based on our examination. We conducted our examination in
accordance with attestation standards established by the American Institute of Certified Public Accountants
and applicable Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform our examination to obtain reasonable assurance about
whether, in all material respects, the description is fairly presented, the controls were suitably designed and
the controls were operating effectively to achieve the related control objectives stated in the description
throughout the period August 1, 2013 to July 31, 2014.
An examination of a description of a service organization's system and the suitability of the design and
operating effectiveness of the service organization's controls to achieve the related control objectives stated
in the description involves performing procedures to obtain evidence about the fairness of the presentation
of the description and the suitability of the design and the operating effectiveness of those controls to
achieve the related control objectives stated in the description. Our procedures included assessing the risks
that the description is not fairly presented and that the controls were not suitably designed or operating
effectively to achieve the related control objectives stated in the description. Our procedures also included
testing the operating effectiveness of those controls that we consider necessary to provide reasonable
assurance that the related control objectives stated in the description were achieved. An examination
engagement of this type also includes evaluating the overall presentation of the description and the
suitability of the control objectives stated therein, and the suitability of the criteria specified by the service
organization and described in management’s assertion in Section II of this report. We believe that the
evidence we obtained is sufficient and appropriate to provide a reasonable basis for our opinion.


Inherent limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct, all errors
or omissions in processing or reporting transactions. Also, the projection to the future of any evaluation of
the fairness of the presentation of the description, or conclusions about the suitability of the design or
operating effectiveness of the controls to achieve the related control objectives is subject to the risk that
controls at a service organization may become inadequate or fail.


Opinion
In our opinion, in all material respects, based on the criteria described in Fiscal Service’s assertion (1) the
description fairly presents the general computer and trust funds management processing controls that were
designed and implemented throughout the period August 1, 2013 to July 31, 2014, (2) the controls related
to the control objectives stated in the description were suitably designed to provide reasonable assurance
that the control objectives would be achieved if the controls operated effectively throughout the period
August 1, 2013 to July 31, 2014, and Program Entities applied the complementary Program Entity controls
contemplated in the design of Fiscal Service’s controls throughout the period August 1, 2013 to July 31,
2014, and (3) the controls tested, which together with the complementary Program Entity controls referred
to in the scope paragraph of this report, if operating effectively, were those necessary to provide reasonable
assurance that the control objectives stated in the description in Section IV were achieved, operated
effectively throughout the period August 1, 2013 to July 31, 2014.




                                                           3
Description of tests of controls
The specific controls and the nature, timing, extent, and results of the tests are listed in Section IV.


Restricted use
This report, including the description of tests of controls and results thereof in Section IV, is intended
solely for the information and use of the management of Fiscal Service, Program Entities of Fiscal
Service’s general computer and trust funds management processing controls during some or all of the
period August 1, 2013 to July 31, 2014, the U.S. Department of the Treasury Office of Inspector General,
the Office of Management and Budget, the Government Accountability Office, the U.S. Congress, and the
independent auditors of Fiscal Service’s Program Entities, who have a sufficient understanding to consider
it, along with other information including information about controls implemented by Program Entities
themselves, when assessing the risks of material misstatements of Program Entities’ financial statements.
This report is not intended to be and should not be used by anyone other than these specified parties.




September 18, 2014
McLean, Virginia




                                                           4
II.   MANAGEMENT’S ASSERTION




               5
                           DEPARTMENT OF THE TREASURY
                           BUREAU OF THE FISCAL SERVICE
                              PARKERSBURG, WV 26106




                                      September 18, 2014

KPMG LLP
1676 International Drive
McLean, VA 22102


Ladies and Gentlemen:

We have prepared the description of the Bureau of the Fiscal Service (Fiscal Service) Funds
Management Branch (FMB) general computer and trust fund processing controls that use
InvestOne accounting system which is a vendor supplied subsystem of the Government Agency
Investment Services System (GAISS) for Program Entities of the system during some or all of the
period of August 1, 2013 through July 31, 2014, and their user auditors who have a sufficient
understanding to consider the description, along with other information, including information
about controls operated by user entities of the system themselves, when assessing the risks of
material misstatements of user entities’ financial statements. We confirm, to the best of our
knowledge, and belief, that

 a. FMB uses a number of different sub-service organizations for certain transaction processing:

      Sub-Service Organization                        Description of Services
     Internal Revenue Service (IRS)                  At the end of each calendar quarter the IRS
                                                     certifies the excise taxes actually collected and
                                                     sends the certification to Fiscal Service. The IRS
                                                     generally certifies excise taxes two quarters after
                                                     the taxes are estimated (i.e., 1st quarter estimate is
                                                     certified in the 3rd quarter).

                                                     The IRS determines the amount of excise tax
                                                     refunds/credits and sends the adjustment to FMB
                                                     to be processed.
     U.S. Department of Treasury – Office of         Treasury’s OTA estimates the monthly excise
     Tax Analysis (OTA)                              taxes based on projected excise tax receipts and
                                                     sends the estimate to Fiscal Service.

                                                     Treasury’s OTA estimates the monthly taxes,
                                                     determines the amounts to be transferred to the
                                                     appropriate trust funds, and sends the estimate to
                                                     Fiscal Service.
     U.S. Department of Treasury Bureau of the       GWA issues a warrant (SF-1017) to increase the
     Fiscal Service - Government wide                respective trust fund’s account, with each warrant
     Accounting (GWA)                                containing exactly half of the OTA estimated
                                                     monthly excise taxes. GWA sends the warrant
                                                     and excise tax estimate to FMB.

                                                 6
                    DEPARTMENT OF THE TREASURY
                    BUREAU OF THE FISCAL SERVICE
                       PARKERSBURG, WV 26106




                                                GWA calculates the excise tax adjustment as the
                                                difference between the excise taxes estimated by
                                                OTA and excise taxes certified by the IRS.
                                                GWA issues FMB a warrant for the excise tax
                                                adjustment to increase or decrease the respective
                                                trust fund’s account.

                                                GWA sends FMB the daily Federal Insurance
                                                Contribution Act (FICA) and Self-Employment
                                                Contribution Act (SECA) tax deposit
                                                information. FMB allocates the deposits to the
                                                appropriate trust funds based on the monthly
                                                OTA estimates and provides the investment
                                                amounts to GWA. GWA confirms the investment
                                                totals back to FMB and prepares the tax warrant.

                                                Transfers from program agencies are the result of
                                                IPAC or SF 1151 Non-Expenditure Transfers that
                                                FMB receives from Program Entities.
U.S. Department of Treasury Bureau of the       The Program Entities generate a file in the
Fiscal Service - Government On-line             IPAC System to allocate the funds to the
Accounting System (GOALS)                       proper trust funds. FMB receives the IPAC
                                                transaction report from the GWA GOALS
                                                system.
U.S. Department of Treasury Bureau of the
                                                FMB receives the daily receipt reports from
Fiscal Service - Intragovernmental
                                                the Program Entities and the IPAC transaction
Payment and Collection (IPAC) System
                                                report from the GWA GOALS system.
                                                Federal agencies make payments to the
                                                Department of Labor using the IPAC System.
                                                The Department of Labor receives IPAC
                                                transactions, maintains the Federal Employees
                                                Compensation Act accounts receivable, and
                                                deposits collections in the UTF via SF-224.
                                                For each redemption transaction, the trust fund
                                                manager obtains the related IPAC report from
                                                the IPAC system.
U.S. Department of Treasury Bureau of the       The Budget Reports Division of Fiscal Service
Fiscal Service - Collections Information        within GWA prepares warrants based on
Repository (CIR)                                collections reported to Fiscal Service through
                                                CIR. The warrants are forwarded to FMB.
U.S. Department of Treasury Bureau of the
                                                FMB uses the automated CARS system,
Fiscal Service - Central Accounting and
                                                maintained by Fiscal Service, to process
Reporting System (CARS)

                                            7
                    DEPARTMENT OF THE TREASURY
                    BUREAU OF THE FISCAL SERVICE
                       PARKERSBURG, WV 26106



                                                transfers.
                                                GWA configured the CARS system to
                                                authorize FMB to transfer funds from the trust
                                                fund accounts to Program Entities’ accounts
                                                but not to transfer funds from Program
                                                Entities’ accounts to the trust fund accounts.
                                                GWA authorizes the CARS system to send the
                                                disbursement request to the STAR system
                                                using an automated interface. The CARS
                                                system changes the status of the transfer
                                                request to “STAR POSTED” on the CARS
                                                system.
U.S. Department of Treasury Bureau of the
                                                FMB reports both proprietary and budgetary
Fiscal Service - Governmentwide Treasury
                                                execution data in GTAS for the Patient
Account Symbol Adjusted Trial Balance
                                                Centered Outcomes Research Trust Fund.
System (GTAS)
U.S. Department of Treasury - Treasury          FMB reports both proprietary and budgetary
Information Executive Repository (TIER)         execution data in TIER for certain trust funds.
                                                Once approved by Treasury, this information is
                                                loaded into Governmentwide Treasury Account
                                                Symbol Adjusted Trial Balance System (GTAS).
U.S. Department of Treasury Bureau of the
                                                Program Entities must submit all disbursement
Fiscal Service - Automated Standard
                                                requests using the ASAP system. Each day,
Application for Payments (ASAP)
System                                          Program Entities must enter their disbursement
                                                requests into the ASAP system by 6:00 pm
                                                EST if requesting a wire transfer and by 11:59
                                                pm EST if requesting an Automated Clearing
                                                House payment.
                                                During the morning of the next business day,
                                                the ASAP system transmits a file to the
                                                InvestOne accounting system that contains all
                                                of the disbursement and transfer requests.
Federal Reserve Bank of New York                The Federal Reserve Bank of New York
                                                accesses CIR, a Treasury on-line system in
                                                which deposit and withdrawal information is
                                                maintained at the detail and summary level,
                                                and uploads the deposit information into the
                                                Unemployment Trust Fund activity location
                                                code.
U.S. Department of Treasury Bureau of the       Oracle is used to report trust fund transactions
Fiscal Service - Office of Administrative       processed through the InvestOne accounting
Services                                        system (for all trust funds except the
                                                Unemployment Trust Fund).


                                            8
                             DEPARTMENT OF THE TREASURY
                             BUREAU OF THE FISCAL SERVICE
                                PARKERSBURG, WV 26106



       U.S. Department of Treasury Bureau of the       FIB processes and confirms
       Fiscal Service - Federal Investments            investment/redemption transactions and
       Branch (FIB)                                    balances.


   The description in Section III and IV includes only the controls and related control objectives
   of Fiscal Service and excludes the control objectives and related controls of the services listed
   above from the respective service organizations. The criteria we used in making this assertion
   were that the accompanying description:

  i.         Presents how the system made available to user entities of the system was designed and
             implemented to process relevant transactions, including:

             1. The types of services provided, including, as appropriate, the classes of transactions
                processed;
             2. The procedures, within both automated and manual systems, by which those
                transactions were initiated, authorized, recorded, processed, corrected as necessary,
                and transferred to the reports prepared for user entities;
             3. The related accounting records, supporting information, and specific accounts that
                were used to initiate, authorize, record, process, and report transactions; this
                includes the correction of incorrect information and how information was
                transferred to the reports prepared for user entities;
             4. How the systems captured and addressed significant events and conditions, other
                than transactions;
             5. The process used to prepare reports or other information for user entities;
             6. Specified control objectives and controls designed to achieve those objectives;
             7. Controls that we assumed, in the design of the system, would be implemented by
                user entities, and which, if necessary to achieve control objectives stated in the
                accompanying description, are identified in the description along with the specific
                control objectives that cannot be achieved solely by controls implemented by us;
                and
             8. Other aspects of our control environment, risk assessment process, information and
                communication systems (including the related business processes), control activities,
                and monitoring controls that are relevant to processing and reporting transactions of
                user entities transactions

       ii.    Does not omit or distort information relevant to the scope of general computer and trust
              fund processing controls, while acknowledging that the description is prepared to meet
              the common needs of a broad range of trust fund customers and independent auditors of
              those entities and may not; therefore, include every aspect that each user entity and its
              auditor may consider important in its own environment.

b. The description includes relevant details of changes to the general computer and trust fund
   processing controls during the period covered by the descriptions.


                                                   9
                        DEPARTMENT OF THE TREASURY
                        BUREAU OF THE FISCAL SERVICE
                           PARKERSBURG, WV 26106



c. The controls related to the control objectives stated in the description were suitably designed
   and operated throughout the period of August 1, 2013 through July 31, 2014 to achieve those
   control objectives. The criteria we used in making this assertion were that:

   i.   The risks that threatened achievement of control objectives stated in the description were
        identified;

  ii.   The identified controls would, if operating as described, provide reasonable assurance that
        those risks did not prevent the stated control objectives from being achieved; and

 iii.   The controls were consistently applied as designed, including whether manual controls



        were applied by individuals who have the appropriate competence and authority.

                                             Very truly yours,




                                             Susan L. Chapman, Director
                                             Division of Federal Investments




                                             10
III.   DESCRIPTION OF CONTROLS PROVIDED BY THE BUREAU OF
                       THE FISCAL SERVICE




                          11
OVERVIEW OF OPERATIONS

The Funds Management Branch (FMB), which was formerly called Trust Funds Management
Branch, is a component of the Bureau of the Fiscal Service (Fiscal Service), which was created on
October 7, 2012 as a result of the consolidation of two Treasury bureaus, the Financial
Management Service (FMS) and the Bureau of the Public Debt (BPD). Treasury Directive 27-02,
describes the functions of the Office of the Fiscal Assistant and established the responsibility to
invest, approve schedules for withdrawals, and maintain accounts for the Federal Trust and
Deposit Programs as directed by statute, and certify interest rates determined by the Secretary of
the U.S. Department of Treasury.

These responsibilities are handled by the Division of Federal Investments (DFI), with the
exception of interest certification, which is handled by the Debt Accounting Branch. DFI
manages two functional areas: FMB and Federal Investments Branch (FIB). FMB is the service
organization responsible for processing certain receipt, investment, investment servicing,
disbursement, and redemption transactions for 22 trust funds. In addition, FMB reports the
results of the transactions processed to the Fiscal Service and the Program Agencies and States
(Program Entities) whose programs are funded by the trust funds. FMB employs eleven
personnel and reports on nearly $3.1 trillion of trust fund assets. FMB more specifically:

       Analyzes provisions and limitations of public laws relating to authorized trust
        fund transactions
       Processes receipt, investment, investment income, and disbursement activity
       Establishes and controls the record keeping of the trust fund activity processed by
        FMB
       Provides monthly reports to Program Entities reflecting trust fund activities and
        balances

Transaction support is maintained in electronic format. The supporting documentation is
maintained in work folders that include at least the following key documents:

            Transaction supporting documentation:
              - Receipt notification documents, such as Office of Tax Analysis (OTA)
                tax estimate/adjustment letters, Internal Revenue Service (IRS) tax
                refund/credit letters, Program Entity receipt letters/reports, Deposit
                Summary Form (SF-215), and CIR (Collections Information Repository)
                reports.
              - Intra-Governmental Payment And Collection (IPAC) transaction reports
              - Classification Transaction and Accountability (CTA)/SF-224 worksheet
                generated from the InvestOne accounting system
              - Governmentwide Accounting (GWA)-issued warrants (SF-1017)
              - Investment and Redemption Requests
              - Investment and Redemption Confirmations
              - Disbursement request letters from Program Entities
              - Non-Expenditure Transfer Authorization (SF-1151)
              - Automated Standard Application for Payments (ASAP) System
                Transaction by Account ID reports, disbursement and transfer request
                files and reports
              - InvestOne      accounting    system    pending     transactions report
                (Unemployment Trust Fund (UTF) Only)

                                              12                Description of Controls Provided
                                                               by the Bureau of the Fiscal Service
            Cash Forecasting Report
            Fund Checklist
            Daily Transaction Support Package (DTSP)
            Monthly financial review checklist
            Classification Transaction Accountability and Reporting System
             (CTA)/Central Accounting and Reporting System (CARS) Account
             Statement
          FIB-generated Monthly Statement of Account
          Monthly Financial Reconciliation
     -InvestOne accounting system to Oracle trial balance report reconciliations
      -General ledger account reconciliations
     -Budgetary to Proprietary Account Reconciliations
     -Financial Reconciliation Package
          Financial Statement Package:
              - Trial Balance reports
              - Balance Sheet
              - Income Statements
          Federal Unemployment Account (FUA) Pending Report (UTF only)
          ASAP transaction report (UTF only)
          UTF InvestOne accounting system Borrowing Reports (UTF only)


FMB processes receipt transactions based on warrants provided by other Fiscal Service
organizations or amounts received from Program Entities and other organizations using the IPAC
or CIR systems. The OTA and IRS are responsible for determining the amount of tax receipts.
The Program Entities and other organizations are responsible for determining the amount of the
non-tax receipts.

FMB invests the receipts in U.S. Department of the Treasury (Treasury) securities. FMB
summarizes the daily receipts, prepares the Fund Checklist/ Investment/Redemption Request
(IRR), and enters the request into FedInvest, which purchases the requested security and posts an
Investment Confirmation on the FedInvest website. FMB primarily purchases non-marketable
Treasury securities that are held in the name of the Secretary of the Treasury for the trust funds,
such as:

    Non-marketable, market-based securities
     Bills
     Bonds
     Notes
     One-day securities


    Non-marketable, par value securities
     Special issue bonds
     Certificates of indebtedness

The interest on securities held for the trust funds is credited to the trust funds in accordance with
legislation. FIB assigns interest rates for the securities issued to the trust funds. The interest rate
for a non-marketable par value security is based on specific legislation or the average monthly
rate of all outstanding Treasury debt instruments. The interest rate for a non-marketable market-

                                                13                 Description of Controls Provided
                                                                  by the Bureau of the Fiscal Service
based security is based on the daily rate established by the Office of Debt Management within the
Treasury for an equivalent marketable security.

FIB issues non-marketable market based bills, bonds, and notes at a discount or premium. FMB
amortizes the discounts for bills (i.e., short-term securities) using the straight-line method and the
discounts and premiums for bonds and notes (i.e., long-term securities) using the level yield
method, which approximates the effective interest method.

Interest income is a receipt to the trust fund and is either used to meet Program Entity
disbursement requests or is reinvested according to the trust funds’ investment policy. The trust
fund managers record interest income as either received or accrued each month. Also if a gain or
loss is sustained when a security is redeemed prior to maturity to meet the cash needs of a
Program Entity, the related gain or loss is also recorded.

The Program Entities that are authorized to use trust fund assets as program resources request
disbursements from FMB. FMB prepares a Fund Checklist/IRR and enters the request into
FedInvest, which redeems the requested amount of securities and posts a Redemption
Confirmation on the FedInvest website. FMB enters a non-expenditure transfer authorization into
Fiscal Service's CTA/CARS System to transfer the requested funds to the Program Entities. The
Program Entities have responsibility for the ultimate disposition of the trust fund assets.

The receipt, investment, investment income, and disbursement activity provide the basis for
reporting financial information to the Program Entities that use the trust fund resources, as well as
other interested parties such as the Office of Management and Budget (OMB) and Treasury
offices. FMB provides monthly financial reports including the activity and balances to the
Program Entities.

The in-scope Fiscal Service functions are shaded in the following organizational chart on the
following page.




                                                14                Description of Controls Provided
                                                                 by the Bureau of the Fiscal Service
                                      ORGANIZATIONAL CHART


                                              Commissioner
                                         Bureau of the Fiscal Service




       Deputy Commissioner                                               Deputy Commissioner
    Finance and Administration                                       Fiscal Accounting and Shared
                                                                                Services


             (ISS)
Information and Security Services
 IT support for Application Security Middle                             Assistant Commissioner -
   ware solution that supports the vendor’s
application security mechanism, Application
                                                                    Fiscal Accounting Operations and
      Processing, and Network Support                                 Governmentwide Accounting




                                                                       (FAO) Fiscal Accounting
                                                                    Operations and Governmentwide
                                                                              Accounting
           (BTD)
    Business Technology
          Division

                                                           (DFI)                           (PSG)
                                                    Division of Federal               Program Support
                                                       Investments                         Group

         (SSB)
Systems Support Branch




                                                  (FMB)                          (FIB)
                                                  Funds                         Federal
                                                Management                    Investments
                                                  Branch                        Branch
                                               Federal Trust Fund                Process
                                                 Management               Investment/Redemption
                                                                             Requests for Fund
                                                                          Agencies on InvestOne
                                                                            Accounting System




                                                        15
                                                                                Description of Controls Provided
                                                                               by the Bureau of the Fiscal Service
RELEVANT ASPECTS OF THE CONTROL ENVIRONMENT, RISK
ASSESSMENT, AND MONITORING

Control Environment

Operations are primarily under the direction of the Office of the Director of the Division of
Federal Investment (DFI) and the Business Technology Division (BTD), which represent the
functional areas listed below:

       Administrative development. Coordinates various aspects of the operations.
        Identifies areas requiring internal controls and implements those controls.
        Performs systems planning, development, and implementation. Reviews network
        operations and telecommunications and performs disaster-recovery planning and
        database administration.

       Program support. Supports Program Entities in all aspects of their use of the
        application system including research and resolution of identified problems.

       Operations. Manages daily computer operations, production processing, report
        production and distribution, and system utilization and capacity.

DFI and BTD hold bi-weekly management meetings to discuss special processing requests,
operational performance, and the development and maintenance of projects in process. Written
position descriptions for employees are maintained. The descriptions are inspected annually and
revised as necessary.

References are sought and background, credit, and security checks are conducted for all Fiscal
Service personnel when they are hired. Additional background, credit, and security checks are
performed every three to five years. The confidentiality of Program Entity information is stressed
during the new employee orientation program and is emphasized in the personnel manual issued
to each employee. Fiscal Service provides a mandatory orientation program to all full time
employees and encourages employees to attend other formal outside training.

All Fiscal Service employees receive an annual written performance evaluation and salary
review. These reviews are based on goals and objectives that are established and reviewed during
meetings between the employee and the employee’s supervisor. Completed appraisals are
reviewed by senior management and become a permanent part of the employee’s personnel file.

Risk Assessment

Fiscal Service has placed into operation a risk assessment process to identify and manage risks
that could affect FMB’s ability to provide reliable transaction processing for Program Entities.
This process requires management to identify significant risks in their areas of responsibility and
to implement appropriate measures and controls to manage these risks.

Additionally, all mission-critical systems and general support systems are subject to an internal
risk-based review every three years. This review identifies assets and possible threats to these
assets, provides a measure of vulnerability of the system to these threats, and confirms control or
protective measures are in place.



                                              16                Description of Controls Provided
                                                               by the Bureau of the Fiscal Service
Monitoring

Fiscal Service management and supervisory personnel monitor the quality of internal control
performance as a normal part of their activities. Management and supervisory personnel inquire
and ensure the trust fund managers process transactions and perform internal controls. In
addition, management reviews financial reports that summarize the trust fund transaction
processing. One key control is that each month the trust fund managers reconcile the trial balance
reports from the InvestOne accounting system to the CARS Account Statement.




                                              17               Description of Controls Provided
                                                              by the Bureau of the Fiscal Service
INFORMATION AND COMMUNICATION

Information Systems

InvestOne Accounting System Description

The InvestOne accounting system is a vendor-supplied subsystem of the Debt Information
Management System (DIMS) effective November 15, 2013. InvestOne was previously part of
the Government Agency Investment Services System (GAISS) until that time. The InvestOne
accounting system is used to record and report trust fund activity processed by FMB. The
InvestOne accounting system is licensed by SunGard Investment Systems, Inc. The InvestOne
accounting system resides on Fiscal Service’s Fiscal IT (FIT-MF) Mainframe. The Information
and Security Services (ISS) provides the primary support for maintaining the InvestOne
accounting system. This includes FIT-MF operations (batch processing and reporting), custom
report writing, application change management, data management, tape backup and recovery,
user access security, remote access and continuity management. The InvestOne accounting
system is accessed through the network using a terminal emulator that enables communication
with ISS FIT-MF applications. The InvestOne accounting system also provides a report writer
package called Spectra that provides users with the ability to create their own reports. Fiscal
Service uses Spectra to create reports, which provide functionality not included in the standard
InvestOne accounting system reports.

The trust fund managers receive supporting documentation on a daily basis for recording trust
fund activity. The trust fund managers record the activity as the supporting documentation is
received into the InvestOne accounting system. This process provides the trust fund managers
with information on daily cash balances that helps them ensure that the activity was processed
and invested correctly. The InvestOne accounting system provides monthly trial balance reports
and financial reports.

FedInvest Description

FedInvest, also a subsystem of DIMS, is a vendor-developed, web-based extension to the
InvestOne accounting system that provides access to the federal investments information through
the Internet. FedInvest allows federal investment fund managers to assume direct responsibility
for managing their respective accounts. Using FedInvest, federal agencies are able to input
transactions into InvestOne accounting system, as well as view account statements and
transaction information over the Internet. Additionally, FedInvest provides an interface to the
InvestOne accounting system for internal fund managers in DFI. FedInvest includes edits that
serve to enforce federal investment program policies resulting in improved data quality in the
InvestOne accounting system.

FedInvest also includes two extensions that are available only to Fiscal Service internal users.
The Customer Role Management (CRM) module is used by the Systems Support Branch (SSB)
Information System Security Representatives (ISSRs) to manage FedInvest users and their access
to associated investment account information. CRM is used by FIB accountants to manage
security type and account information. CRM is also used to create and post broadcast messages
(announcements) that are seen by users signed onto the system, and establish email
communication to all system users and their agency Chief Financial Officers. The Rate Price
Administration (RPA) module is used by FIB accountants to load rates/prices, publish rates/prices
on the TreasuryDirect website, apply prices to pending market-based transactions, post pending


                                             18                Description of Controls Provided
                                                              by the Bureau of the Fiscal Service
par value redemption transactions, and update FedInvest with the Consumer Price Index (CPI) for
processing TIPS transactions.


Oracle Federal Financials (Oracle) Description

Fiscal Accounting Operations (FAO) has outsourced the hosting of Oracle Federal Financials to
Oracle Corporation’s Oracle on Demand service. As the hosting company for ARC, Oracle on
Demand staff serve as the database and system administrator and provides backup and recovery
services. The Oracle system physically resides in a caged federal environment within Oracle on
Demand’s Austin Data Center and is only accessible via a Virtual Private Network (VPN)
between Fiscal Service and Oracle on Demand.

Oracle on Demand operates Oracle version 11 and R12, Oracle 11g database in a Linux operating
system environment. Oracle uses a two-tier web-based infrastructure with a front-end Internet
user interface and a database residing on the secure network. Oracle accesses the database IP to
IP on a specified port that was defined in the Access Control List. Internet access is via a 128-bit
Secure Sockets Layer (SSL) encrypted connection. Oracle is compliant with Section 508 of the
Rehabilitation Act Amendment for 1998 for Americans with Disabilities (ADA).

FMB uses Oracle to report trust fund transactions processed through the InvestOne accounting
system (for all trust funds except the Unemployment Trust Fund). FMB also uses a report writer
package called Discoverer that provides users with the ability to create their own ad hoc reports
for query purposes.

Communication

Fiscal Service has implemented various methods of communication to ensure that all employees
understand their individual roles and responsibilities over transaction processing and controls.
These methods include orientation and training programs for newly hired employees, and use of
electronic mail messages to communicate time sensitive messages and information. Managers
also hold periodic staff meetings as appropriate. Every employee has a written position
description that includes the responsibility to communicate significant issues and exceptions to an
appropriate higher level within the organization in a timely manner.




                                               19                Description of Controls Provided
                                                                by the Bureau of the Fiscal Service
COMPLEMENTARY PROGRAM ENTITY CONTROLS

FMB’s processing of transactions and the controls over the processing were designed with the
assumption that certain controls would be placed in operation by Program Entities. The
application of specific controls at customer organizations is necessary to achieve all control
objectives included in this report.

This section describes some of the controls that should be in operation at Program Entities to
complement the controls at FMB. Program Entity auditors should determine whether Program
Entities have established controls to provide reasonable assurance that:

   Ensure that access to the FedInvest system is restricted to properly authorized individuals.

   Verify that only authorized receipts are deposited into the trust funds.

   Review and approve receipt amounts.

   Provide receipt information to FMB within the required time frames.

   Review the monthly financial reports provided by FMB to ensure that receipts are posted
    accurately.

   Verify that the type and term of the investments purchased are appropriate in relation to
    expected cash flow needs.

   Verify that the type and term of the investments purchased and related investment income are
    appropriate in relation to expected cash flow needs.

   Verify that only authorized disbursement requests are used for withdrawals from the trust
    funds.

   Review and approve the disbursement requests.

   Provide disbursement requests to FMB within the required time frame.

   Ensure that the systems they use to support on-line access to ASAP are approved, tested, and
    properly monitored. (UTF and Patient Centered Outcomes Research Trust Fund only)

   Restrict access to the ASAP to authorized individuals. (UTF and Patient Centered Outcomes
    Research Trust Fund only)

   Verify that disbursement requests are accurately entered into the ASAP system. (UTF and
    Patient Centered Outcomes Research Trust Fund Only)

   Review the monthly trust fund financial reports provided by FMB to ensure that
    disbursements are posted accurately.

   Reconcile fund balance with Treasury from their records to Fiscal Service records to ensure
    that they receive the proper trust fund disbursements.


                                               20                 Description of Controls Provided
                                                                 by the Bureau of the Fiscal Service
   Reconcile disbursement records to their bank’s records to ensure that they receive the proper
    trust fund disbursements. (UTF and Patient Centered Outcomes Research Trust Fund only)

   Review the monthly trust fund financial reports to ensure that transactions are recorded
    accurately.

   Review their UTF account statements, transaction statements, and Federal activity reports to
    ensure that transactions are recorded accurately.

   Verify that borrowing requests are accurately entered into the ASAP system. (UTF only)

   Verify that borrowing amounts are not in excess of the amount approved by the U.S.
    Department of Labor. (UTF only)

   Review the reports provided by FMB to ensure that borrowing, interest, and repayment
    transactions are recorded accurately. (UTF only)

Specific complementary Program Entity controls are provided for Control Objectives 5, 9, 10, 11,
13, 15, and 16 in the Control Objectives, Related Controls, and Tests of Operating Effectiveness
section of this report.




                                             21                Description of Controls Provided
                                                              by the Bureau of the Fiscal Service
SUB-SERVICE ORGANIZATIONS

In order to provide trust funds management processing services, FMB relies on systems and
services provided by other organizations external to Fiscal Service (sub-service organizations).
The following table describes the types of the sub-service organizations used by FMB. These sub-
service organizations were not subject to examination by KPMG LLP.

  Name of Sub-       Name of system                     Function/Responsibilities
    service
  Organization

 Internal Revenue    N/A                 At the end of each calendar quarter the IRS certifies
 Service (IRS)                           the excise taxes actually collected and sends the
                                         certification to Fiscal Service. The IRS generally
                                         certifies excise taxes two quarters after the taxes are
                                         estimated (i.e., 1st quarter estimate is certified in the 3rd
                                         quarter).
                                         The IRS determines the amount of excise tax
                                         refunds/credits and sends the adjustment to FMB to be
                                         processed.

 Treasury - Office   N/A                 Treasury’s OTA estimates the monthly excise taxes
 of Tax Analysis                         based on projected excise tax receipts and sends the
 (OTA)                                   estimate to Fiscal Service.
                                         Treasury’s OTA estimates the monthly taxes,
                                         determines the amounts to be transferred to the
                                         appropriate trust funds, and sends the estimate to Fiscal
                                         Service.

 Fiscal Service  N/A                     GWA issues a warrant (SF-1017) to increase the
 Government wide                         respective trust fund’s account, with each warrant
 Accounting                              containing exactly half of the OTA estimated monthly
                                         excise taxes. GWA sends the warrant and excise tax
                                         estimate to FMB.
                                         GWA calculates the excise tax adjustment as the
                                         difference between the excise taxes estimated by OTA
                                         and excise taxes certified by the IRS. GWA issues
                                         FMB a warrant for the excise tax adjustment to
                                         increase or decrease the respective trust fund’s
                                         account.
                                         GWA sends FMB the daily Federal Insurance
                                         Contribution Act (FICA) and Self-Employment
                                         Contribution Act (SECA) tax deposit information.
                                         FMB allocates the deposits to the appropriate trust
                                         funds based on the monthly OTA estimates and
                                         provides the investment amounts to GWA. GWA
                                         confirms the investment totals back to FMB and


                                             22                 Description of Controls Provided
                                                               by the Bureau of the Fiscal Service
Name of Sub-   Name of system                    Function/Responsibilities
  service
Organization

                                   prepares the tax warrant.
                                   Transfers from program agencies are the result of
                                   IPAC or SF 1151 Non-Expenditure Transfers that
                                   FMB receives from Program Entities.

               Government On-      The Program Entities generate a file in the IPAC
               line Accounting     System to allocate the funds to the proper trust funds.
               System (GOALS)      FMB receives the IPAC transaction report from the
                                   GWA GOALS system.


               Intragovernmental FMB receives the daily receipt reports from the
               Payment and       Program Entities and the IPAC transaction report from
               Collection (IPAC) the GWA GOALS system.
               System
                                 Federal agencies make payments to the Department of
                                 Labor using the IPAC System. The Department of
                                 Labor receives IPAC transactions, maintains the
                                 Federal Employees Compensation Act accounts
                                 receivable, and deposits collections in the UTF via SF-
                                 224.
                                   For each redemption transaction, the trust fund
                                   manager obtains the related IPAC report from the
                                   IPAC system.

               Collections         The Budget Reports Division of Fiscal Service within
               Information         GWA prepares warrants based on collections reported
               Repository          to Fiscal Service through CIR. The warrants are
                                   forwarded to FMB.




                                      23                 Description of Controls Provided
                                                        by the Bureau of the Fiscal Service
Name of Sub-   Name of system                   Function/Responsibilities
  service
Organization

               Central            FMB uses the automated CARS system, maintained by
               Accounting and     Fiscal Service, to process transfers.
               Reporting System
                                  GWA configured the CARS system to authorize FMB
               (CARS)             to transfer funds from the trust fund accounts to
                                  Program Entities’ accounts but not to transfer funds
                                  from Program Entities’ accounts to the trust fund
                                  accounts.
                                  GWA authorizes the CARS system to send the
                                  disbursement request to the STAR system using an
                                  automated interface. The CARS system changes the
                                  status of the transfer request to “STAR POSTED” on
                                  the CARS system.
                                  FMB submits receipt and expenditure reporting
                                  activity to and from the trust funds via the CARS
                                  Classification Transactions and Accountability (CTA)
                                  module, a SF-224 Statement of Transaction report (SF-
                                  224), which posts to CARS and STAR.

               Treasury           FMB reports both proprietary and budgetary execution
               Information        data in TIER for certain trust funds. Once approved by
               Executive          Treasury, this information is loaded into
               Repository         Governmentwide Treasury Account Symbol Adjusted
               (TIER)             Trial Balance System (GTAS).

               Governmentwide     (10/01/2013 forward) GTAS is a web-based system
               Treasury Account   implemented for use in Governmentwide reporting
               Symbol Adjusted    setting that includes the functionality of FACTS II,
               Trial Balance      which FMB uses to report trust fund budget execution
               System (GTAS)      data.


               Automated          The UTF Program Entities must submit all
               Standard           disbursement requests using the ASAP system. Each
               Application for    day, Program Entities must enter their disbursement
               Payments (ASAP)    requests into the ASAP system by 6:00 pm EST if
               System             requesting a wire transfer and by 11:59 pm EST if
                                  requesting an Automated Clearing House payment.
                                  During the morning of the next business day, the
                                  ASAP system transmits a file to the InvestOne
                                  accounting system that contains all of the disbursement
                                  and transfer requests.




                                     24                Description of Controls Provided
                                                      by the Bureau of the Fiscal Service
 Name of Sub-     Name of system                 Function/Responsibilities
   service
 Organization

Federal Reserve   N/A              The Federal Reserve Bank of New York accesses CIR,
Bank of New                        a Treasury on-line system in which deposit and
York                               withdrawal information is maintained at the detail and
                                   summary level, and uploads the deposit information
                                   into the Unemployment Trust Fund (UTF) activity
                                   location code.

Office of         Oracle           Oracle is used to report trust fund transactions
Administration                     processed through the InvestOne accounting system for
Services                           all trust funds except the UTF. Transactions for the
                                   Gulf Coast Restoration Trust Fund (GCRTF) are
                                   processed in Oracle.

Federal           N/A              FIB processes and confirms investment/redemption
Investments                        transactions and balances.
Branch (FIB)




                                      25                Description of Controls Provided
                                                       by the Bureau of the Fiscal Service
IV.   CONTROL OBJECTIVES, RELATED CONTROLS, AND
          TESTS OF OPERATING EFFECTIVENESS




                       26
GENERAL COMPUTER CONTROLS

Control Objective 1 – System Software
Controls provide reasonable assurance that changes to system software are authorized, tested,
approved, properly implemented, and documented.
Description of Controls
The Bureau of the Fiscal Service has documented procedures for the authorization, testing,
approval, implementation, and documentation of system software changes.
The InvestOne accounting system operates within a FIT-MF environment1. The FedInvest
system is operated within a client-server environment2,3. FIT-MF and client-server system
software products are under vendor control for maintenance and support. Upgrades to these
products are obtained from the vendors and installed by the Information and Security Services
(ISS) specialists.
For system software changes, Fiscal Service uses the HP Service Manager (HPSM) product for
change management. All system software changes (i.e., new product installations, maintenance
upgrades, etc.) require a change record to be opened in HPSM. A change record can be opened
by any specialist in ISS for effecting such changes or the change control coordinator. The HPSM
change record includes a description of the change, implementation date of the change, a
justification, and a back-up/back-out plan.
Changes are initially discussed at the weekly change control meetings. Attendees include ISS
representatives impacted by the proposed change. Notification is sent to the assistant
commissioner, division directors, branch managers and/or staff personnel. Following the
meeting, the change control coordinator prepares and distributes the Weekly Change Control
Memorandum with information on changes for the upcoming week. This memorandum describes
the system changes, effective dates, reasons for changes or problems the changes will resolve.
There is also a reference to the HPSM change control number.
Before system software changes can be moved to production, they are tested in accordance with
the Fiscal Service’s system software change control procedures. These procedures document the

1
    Which consists of the following system software products:
           z/OS Operating System
           Customer Information Control System (CICS)
           ACF2 Security
           Tape Management System (TMS)
           Control M and D (Production and Print scheduling)
           ETF/A (Emergency Change Control)
           MQSeries
           DB2
2
    The FedInvest system is composed of the following system software components:
            Spring
            Hibernate
            Java Server Faces
            JAVA
            Windows Server 2008
            Sybase
            DB2
            WebSphere Application Server
3
    Reliant Services:
             LDAP access to Enterprise Directory Services
             SMTP access to Domino messaging service


                                                                27
authorization, testing, approval, implementation, and documentation requirements for system
software changes. Changes progress through various environments, which differ according to the
type of system infrastructure. For the FIT-MF, there are three separate environments: test,
acceptance, and production. Each environment is a logical environment with its own datasets
and libraries. FIT-MF changes are first tested by a programmer in the test environment; moved to
acceptance, tested, and then changes are moved to the production environment following
approval. For changes to distributed software, changes are promoted up through integration,
acceptance, and production regions within similar controls described above.
All changes are reviewed and coordinated at the weekly change control meeting, and approved by
the change control coordinator prior to being moved into the production environment.
All emergency changes follow the same process as indicated above, with the exception that
changes move through the environments at an accelerated rate. Testing and approval of these
changes are documented in HPSM.
Fiscal Service has established a process that allows system programmers and database
administrators to have temporary access to the Production FIT-MF environment through the use
of a “fire-call” ID product that allows them elevated privileges for system software and
application changes. The operating system is configured to monitor and log such activity for
review and approval by management; management reviews these logs within a reasonable
timeframe after the use of "fire-call".
ISS reviews the use of sensitive system utilities included in the protected programs group on a
weekly basis and limits access to these programs based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for system software change management and determined that
   procedures were documented, including procedures to document, test, authorize, and approve
   system software changes, and properly implement changes into production.

2. Inspected the emergency system software change procedures and determined that procedures
   for implementing emergency system software changes were documented, including approval
   by management.

3. Inspected vendor maintenance support contracts for system software and determined that the
   contracts existed and were current.

4. For a selection of system software change records, inspected HPSM tickets and determined
   that HPSM was used throughout the examination period to log, track, and monitor system
   software changes.

5. For a selection of dates, inspected Weekly Change Control Memorandums and determined
   that weekly change control meetings were held to discuss planned changes with the potential
   to impact the InvestOne accounting system or FedInvest application system software.

6. For a selection of system software changes and emergency system software changes,
   inspected supporting documentation and determined that the changes were tested, authorized,
   and approved prior to implementation. There were no emergency system software changes
   during the period.

7. Inspected a list of users with access to use fire-call and determined that the list was
   commensurate with job responsibilities.
                                              28
8. For a selection of days, inspected fire-call logs and evidence of review, and determined that
   fire-call logs were reviewed by ISS management.

9. For a selection of weeks, inspected evidence of ISS’s review of reports for sensitive system
   utilities in the protected programs group and determined that the reports were reviewed.

No exceptions noted.




                                              29
Control Objective 2 – Vendor Software
Controls provide reasonable assurance that implemented new releases of vendor-supplied
applications are tested, approved, properly implemented, and documented.
Description of Controls
Fiscal Service has documented procedures for the testing and approved of new releases of vendor
supplied applications. The change control process is under the control and direction of BTD is
part of FAO. Fiscal Service uses the HPSM product for documenting vendor-supplied releases.
The InvestOne accounting system is licensed by SunGard Investment Systems, Inc (SunGard).
Fiscal Service has a maintenance and support contract for the InvestOne accounting system with
SunGard. ISS is responsible for of all maintenance and support of the FedInvest system.
SunGard periodically provides new releases of the InvestOne accounting system, including
documentation. Each new release requires comprehensive testing. BTD tests the new InvestOne
accounting system releases developed by SunGard consistent with change control procedures for
FAO systems. New InvestOne accounting system releases are installed in the Test environment
where they are initially tested. After successful completion of testing, ISS migrates the InvestOne
accounting system new release to the Acceptance environment, where it is subjected to
acceptance testing by users. ISS only installs an InvestOne accounting system new release in the
Production environment after all testing has been successfully completed and management has
approved the InvestOne accounting system new release for implementation in the Production
environment. Fiscal Service loaded InvestOne version 12.010.1 on February 22, 2014.
In addition to new releases, SunGard will periodically provide fix tapes for the InvestOne
accounting system. Fix tapes, which address certain InvestOne accounting system issues, are
narrower in scope than new releases. Based on what changes a particular fix tape includes, Fiscal
Service management will decide whether or not to implement the fix tape. If management
decides to implement the fix tape, the fix tape is migrated through the Test and Acceptance
environments. Fix tapes are installed in the Production environment only after successful
completion of testing in the Test and Acceptance environments and management approval for
migration into the Production environment.
BTD also tests changes to the InvestOne accounting system application reports, developed by
SunGard Investment Systems, Inc. using the same change control procedures described above.
In addition, Fiscal Service uses the version control software to manage the upgrades and
enhancements. Changes are only migrated into the production environment once all responsible
parties approve the change in the version control software. Access to migrate changes via the
version control software is limited based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected procedures for the implementation of new releases of vendor supplied applications,
   and determined that they were documented and included requirements for testing,
   documentation, and approval.

2. Inspected vendor maintenance support contracts for the InvestOne accounting system
   software and determined that the contracts existed and were current.

3. For new InvestOne releases, inspected supporting documentation and determined that the
   releases were tested, approved, properly implemented and documented.



                                                30
4. Inspected the listing of vendor software changes and enhancements and determined that there
   were no fix tapes installed into the production environment during the examination period.

5. Inspected version control software access permissions and determined that access
   permissions to migrate changes to the production environment were restricted commensurate
   with job responsibilities.

No exceptions noted.




                                             31
Control Objective 3 – Program Change Control
Controls provide reasonable assurance that development of new applications and changes to
existing applications are tested, approved, properly implemented, and documented.
Description of Controls
Fiscal Service has documented procedures for the testing, approval, implementation, and
documentation of application software changes. The application change control process is under
the control and direction of BTD.
SunGard has custom built additional application components for data entry and reporting.
Included is the FedInvest application, which functions as a web-based user interface that Fund
Agencies can use for entering transactions into the InvestOne accounting system. For reporting,
Fiscal Service has built internally-developed programs utilizing RM (desktop) COBOL and
mainframe COBOL that generate customized reports to provide information unavailable in the
standard InvestOne accounting system reporting package.
For RM COBOL, ISS uses version control software4 to control access to source code for these
internally-developed programs and to facilitate version control by requiring developers to check
source code in and out using version control software. These programs read the data from the
InvestOne accounting system and create reports. Specifically, data is downloaded from
InvestOne accounting system, using standard processes, to a data file on the FIT-MF then via ftp
to the servers where the programs execute. Data is not sent from these programs to the InvestOne
accounting system. The reports are used by the trust fund managers, sent to Fund Agencies, or
sent to U.S. Department of Treasury’s Fiscal Service, the Office of Debt Management and Office
of Fiscal Projection. The Congressional Budget Office also receives reports generated from the
InvestOne accounting system.
For FIT-MF COBOL, ISS uses version control software5 to control access to source code for
these internally-developed programs and to facilitate version control. These programs were
developed by ISS and reside on the mainframe, where these programs execute.
For FedInvest and customized reports, ISS uses version control software6 to control access to
source code for the vendor supplied and Fiscal Service managed programs to facilitate version
control. Changes to FedInvest were developed by SunGard between August 1, 2008 and
September 30, 2008 and by ISS between October 1, 2008 and July 31, 2009.
BTD provides support for the design and testing of the above changes. BTD creates the
requirements documentation, which is then provided to ISS (or SunGard) for development. BTD
manages the request, documentation, testing, and approval process using a Change Control
Checklist and HPSM.
Changes using version control software progress through four separate environments: Test
Integration, Acceptance, and Production. A change is first tested by the programmer in the Test
or Integration environment. It is then migrated to the Acceptance environment where a user tests
the change using example transactions and Acceptance environment files and libraries.
Once the SSB Branch Manager approves the change, SSB sends a request to ISS to move the
change into the Production environment. Upon notification of an accepted change, ISS creates an
update package in version control software. Only approved changes are installed in the
Production environment.

4
  Subversion
5
  Endevor
6
  Subversion

                                              32
Each change is reviewed by the user groups that are affected by the change, and each group
provides user concurrence that they accept the change. Following user concurrence, a senior staff
member reviews the testing materials and completes the Change Control Checklist indicating that
testing has been completed. The package is provided to SSB Branch Manager for final review
and approval.
For FIT-MF COBOL, the version control software is an application through which users approve
changes. This version control software is also used to move changed program files into the
Production environment. This version control software will not allow changes to be migrated
from the Acceptance environment into production until the changes have been approved. Access
to migrate changes to Production via the version control software change control software is
limited based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected application software change procedures and determined that they were documented
   and included requirements for testing, documentation, and approval.

2. Inspected the access permissions and inquired of ISS management and determined that access
   to source code for internally-developed programs was commensurate with job
   responsibilities.

3. Inspected the access control lists for FedInvest and customized reports version control
   software and determined that access to the source code for FedInvest was commensurate with
   job responsibilities.

4. Inspected a selection of change records in HPSM and determined that HPSM was used
   throughout the examination period to log, track, and monitor application software changes.

5. For a selection of application software changes, inspected supporting documentation and
   determined that the changes were tested and approved changes were installed.

6. Inspected version control software access permissions and determined that access
   permissions to migrate changes to the production environment were restricted commensurate
   with job responsibilities for mainframe COBOL and FedInvest.

No exceptions noted.




                                               33
Control Objective 4 – Physical Access
Controls provide reasonable assurance that physical access to computer equipment and storage
media is restricted to authorized individuals.
Description of Controls
Fiscal Service has documented policies and procedures for controlling physical access to
buildings and to the data center. These include:
          Identification of sensitive/critical areas to which access needs to be restricted.
          Physical access controls designed to detect unauthorized access.
          Procedures for log reviews and investigation of violations.
The InvestOne accounting system FIT-MT and FedInvest servers reside in ISS’s data center.
Various physical access controls protect the facilities. 7
The Security Branch issues employee badges, after performing security background checks and
fingerprinting.
Employees are required to have badges available at all times upon request.
Terminated employees are required to surrender identification badges and are removed from the
database security system immediately.
Physical access to the ISS Data Center is restricted to authorized users only. An employee
needing access to the data center must have his/her Branch Manager request access for a one-day
badge, which will give the employee access to the data center. The requests are made through
iET, a workflow system that is used to approve data center access. After the Branch Manager
completes and submits the iET request form for the appropriate ISS resource area access level,
requests are forwarded to ISS's data center managers for approval in the iET. If ISS approves the
request and the appropriate training is completed by the employee, the Fiscal Service Division of
Security and Emergency Programs (DSEP) Security Branch grants access. Access to all sensitive
areas requires use of a badge. The use of a badge provides an audit trail that is reviewed by ISS
management monthly for potential access violations. Any unauthorized access attempts are
followed-up on by contacting the individual’s supervisor. Individuals without badge access to the
data center must be escorted to the command center and are required to sign in/out of a Visitor
log to be issued a data center visitor badge. Visitor badges do not have access to the data center,
but rather designate the individual as a visitor. A visitor log is maintained at the main entrance to
the data center. 8
ISS performs a monthly review of individuals’ access patterns of the data center for the previous
month. ISS performs a semiannual reconciliation of individuals authorized data center access to
individuals granted data center access by DSEP. Additionally, ISS performs an annual review
and recertification of individuals with access to the data center. If an individual is found to have
unauthorized data center access, ISS will, based on the individual’s need for access, make a
decision whether to request that DSEP remove their data center access or whether to provide
authorization for their access.

7
  Armed security guards man and monitor Fiscal Service facilities 24 hours a day, 7 days a week. A digital video camera system
monitors all entrances, the building perimeter, and certain interior areas, including the data center, and records activity 24 hours a day.
All people entering each building are required to place any materials, packages, bundles, etc. onto an x-ray machine. Entrants are also
required to pass through a walkthrough metal detector. An activation of the walkthrough metal detector results in further screening by
the security guard, utilizing a handheld metal detector to identify the source of activation. In addition, entrants must swipe their badges
into an access control system that grants access to authorized personnel.
8
  Only designated DSEP specialists have access to PACS. Vendors that are authorized to have a badge are issued a One-day badge
and must leave their access badge onsite following completion of work in the data center. A log of One-Day badges is maintained and
reviewed weekly .


                                                                   34
Tests of Operating Effectiveness and Results of Testing

1. Inspected physical access policies and procedures for the data center and determined that they
   were documented and included the identification of sensitive/critical areas to which access
   needs to be restricted, physical access controls designed to detect unauthorized access, and
   procedures for log reviews and investigation of violations.

2. Observed physical access controls of Fiscal Service buildings related to FMB and the ISS
   data center and noted that security guards, video cameras, badge readers, and locked doors
   were in place and in operation to restrict access.

3. Observed persons entering Fiscal Service buildings related to FMB and noted that persons
   were required to place any materials, packages, bundles, etc. onto an x-ray machine, and
   additionally were required to pass through a walkthrough metal detector.

4. Observed persons entering Fiscal Service buildings related to FMB and noted that an
   activation of the walkthrough metal detector resulted in further screening by the security
   guard, utilizing a handheld metal detector to identify the source of activation.

5. Observed entrants swipe their badges into the access control system and noted that the
   controls system granted access to authorized personnel.

6. For a selection of personnel granted data center access, inspected supporting documentation
   and determined that access badges were issued to personnel with a completed background
   check and fingerprinting.

7. Observed employees within the Fiscal Service buildings related to FMB and noted that
   badges were displayed.

8. Inspected the data center access list and compared to a list of separated employees and
   determined that separated employees were removed from the badge reader system.

9. Inspected a list of employees with card key access to the data center and tape storage room
   from the card security system and an organizational listing showing employees requiring
   access to the data center and tape storage room and determined that physical access to the ISS
   data center was restricted to authorized employees only.

10. For a selection of employees and contractors granted access to the data center during the
    examination period, inspected the iET record for the access granted and determined that
    access was approved by the data center manager.

11. Inspected permissions to access the PACS badge system of Fiscal Service security
    management, and determined that access permissions to the physical access systems were
    commensurate with job responsibilities.

12. For a selection of months, inspected evidence of the monthly review of violation logs and
    determined that a review to identify unauthorized access attempts was performed and
    violations were followed-up on.

13. For a selection of dates, inspected visitor logs and determined that visitor logs were reviewed.



                                                35
14. For a selection of days, inspected shift logs and determined that an inventory of vendor
    badges was performed.

15. Inspected documentation of the monthly review of physical access privileges to the data
    center and determined that access privileges were reviewed.

16. Inspected documentation of the annual recertification of physical access privileges to the data
    center and determined that access privileges were recertified.

No exceptions noted.




                                                36
Control Objective 5 – Logical Access
Controls provide reasonable assurance that logical access to system and application software is
restricted to authorized individuals.
Description of Controls
Fiscal Service has guidelines for the preparation of security plans for applications and systems
that process Sensitive but Unclassified information. All mission-critical systems and general
support systems are subject to an internal risk-based review every three years. This review
identifies assets and possible threats to these assets, provides a measure of vulnerability of the
system to these threats, and confirms control or protective measures are in place.
The InvestOne accounting system is classified as a mission-critical system.
InvestOne accounting system security along with the host FIT-MF’s security package controls
access to the InvestOne accounting system. InvestOne accounting system security restricts access
to accounts within the system based on user banks and user identification (UID). InvestOne
accounting system access is restricted to authorized personnel. The security settings are also used
to restrict ISS personnel’s access to system software, data files, and program libraries.
FedInvest is a web-based user interface through which users have access to enter transactions into
and view InvestOne accounting system data. External users are limited to accessing InvestOne
accounting system data through FedInvest. External users that invest in Government Account
Series (GAS are able to connect to FedInvest over the Internet to input transactions into the
InvestOne accounting system as well as to view account statements and transaction information.
Administrator access permissions are allocated in the FedInvest and the InvestOne accounting
system users commensurate with their job responsibilities.
FAO follows Fiscal Service system administration security password guidelines/procedures to
establish and maintain passwords.9 Passwords are not displayed when entered. The reserved
word feature is enabled to prevent the use of commonly used words in passwords.
ISSRs manage access to the InvestOne accounting system. Users must complete and submit an
Access Request/ Revoke Form to their supervisor who approves the form and forwards to SSB
before access is granted. DFI personnel authorize the form and forward to SSB ISSRs to process
the request. SSB has documented procedures for granting access. Modifications to user accounts
require use of the same Access Request/Revoke Form.
External users must have their supervisor’s approval along with DFI approval documented on an
Access Request/Revoke form before access is granted to FedInvest. When an external user
accesses InvestOne accounting system data, they enter a user ID and password into FedInvest.
User IDs are authenticated by a security utility10. If the required authentications failed, the user
would be prevented from accessing InvestOne accounting system data through FedInvest.
ISSRs remove FedInvest and InvestOne accounting system access from users at the request of
their managers/supervisors or FMB personnel. Each access removal request is documented via an
email.
On a routine basis, ISSR reviews Internal Violations Reports for any inappropriate activity;
follow-up is notated on the report.

9
  These guidelines require passwords to be at least 8 characters in length, changed every 30 days for ACF2 and every 90 days for
LDAP, and unique for each individual.
10 Fiscal Service's standard authentication utility BPDLogin, is used to authenticate users. User credentials are stored in the enterprise
directory.


                                                                   37
Additionally, on a periodic basis an ISSR reviews a report of all InvestOne accounting system
user IDs that have not been used to access InvestOne accounting system within a predetermined
number of days11. The ISSR follows up with any affected users by email or by phone.
Additionally, SSB recertifies access annually to mission critical systems by verifying access
privileges for all InvestOne accounting system and FedInvest users.
ISSRs remove or modify any user IDs or access privileges identified for deletion or changes by
the user’s manager/supervisor or DFI personnel when accompanied by an email.

Complementary Program Entity Controls

Fund Agencies should establish controls to:

       Ensure that access to FedInvest is restricted to properly authorized individuals.

Tests of Operating Effectiveness and Results of Testing

1. Inspected the relevant System Security Assessment and Authorization documentation of the
   InvestOne accounting system and FedInvest systems and determined that the system had been
   authorized to operate.

2. Inspected the InvestOne accounting system and FedInvest risk assessment and determined
   that a risk assessment was performed and was approved on March 1, 2013.

3. Inspected the InvestOne accounting system and FedInvest security plan and determined that
   the plan was documented in accordance with Fiscal Service’s guidelines.

4. Observed a user log into the InvestOne accounting system and noted that their access was
   restricted in accordance with the system configuration.

5. For each InvestOne accounting system user, compared access granted to an FAO
   Organization Chart and determined that access privileges were commensurate with job
   responsibilities.

6. Observed a user log into the FedInvest system and noted that their access was restricted in
   accordance with the system configuration.

7. Inspected security guidelines and procedures for administrator privileges for the InvestOne
   accounting system and FedInvest and determined that security guidelines and procedures
   were documented for administrator privileges.

8. Inspected a list of users with administrator access privileges to InvestOne accounting system
   and FedInvest and determined that access was limited commensurate with job
   responsibilities.

9. Inspected security guidelines and procedures for InvestOne and FedInvest and determined
   that logical access controls procedures were documented.



11
     A list of InvestOne users that have not logged into InvestOne for 45 days or more is reviewed monthly.


                                                                   38
10. Inspected password settings for InvestOne accounting system and FedInvest and determined
    that password length, complexity, and expiration settings were configured in accordance with
    Fiscal Service requirements.

11. Observed a user log into InvestOne accounting system and FedInvest and noted that their
    password was masked as they entered it.

12. For a selection of new InvestOne users, inspected documented user access request forms and
    determined that access was authorized by FMB and the user’s supervisor.

13. For a selection of new FedInvest users, inspected documented user access request forms and
    determined that access was authorized by FMB and the user’s supervisor.

14. Inspected a list of all separated and transferred Fiscal Service employees with InvestOne or
    FedInvest access and lists of InvestOne accounting system and FedInvest user IDs and
    determined that access to InvestOne accounting system and FedInvest had been revoked for
    terminated and transferred Fiscal Service employees with InvestOne or FedInvest access.

15. For a selection of weeks, inspected ACF2 InvestOne audit log reports and evidence of
    review, and determined that the reports were reviewed by an ISSR and any exceptions were
    followed-up.

16. For a selection of months, inspected evidence of review and removal of inactive accounts and
    determined that inactive user accounts were reviewed on a monthly basis.

17. Inquired of management and was informed that the annual review and recertification of
    internal InvestOne and external FedInvest user access was not completed during the
    examination period.

No exceptions noted.




                                              39
Control Objective 6 – Computer Operations
Controls provide reasonable assurance that computer processes are scheduled appropriately and
deviations are identified and resolved.
Description of Controls
The InvestOne accounting system is an interactive FIT-MF system with master data files that are
updated when entries are posted. End-of-day processes perform maintenance to the data files
and data backups. ISS support personnel complete the Production Control Daily Checklist to
verify the successful completion of end-of-day processes. Data entry error checking and input
screen designs help ensure that the data entered by the users is accurate and complete. The error
checks include verification of entered data based on predetermined values and ranges. Errors
detected by the system are rejected immediately and must be corrected before the transaction is
permitted to update the master data tables.
Daily user operations procedures are posted for the InvestOne accounting system to provide
operators with the information necessary to sequentially complete daily processing. Additionally,
a monthly calendar is posted that highlights the daily requirements. The InvestOne accounting
system configuration requires that daily reporting be performed in sequence before transaction
processing can begin.
The mainframe job scheduler software controls the scheduling of batch jobs for the InvestOne
accounting system. The job scheduler allows all programs for batch processing, printing and data
backup to be scheduled and performed automatically. Access to the job schedules is limited to
ISS support personnel and privileges are commensurate with job responsibilities. The job
scheduler sends messages confirming successful completion of each day’s scheduled jobs to ISS
and SSB. Any abends are also communicated to the appropriate ISS and SSB personnel as they
happen through automated messages. Abends are resolved and jobs are restarted as necessary
through the job scheduler.

Tests of Operating Effectiveness and Results of Testing

1. For a selection of dates, inspected Production Control Daily Checklists and determined that
   the checklists were used during processing.

2. Observed transactions entered into the InvestOne accounting system and noted that error
   checking edits prevented users from entering values of the wrong data type or values not on
   lookup lists.

3. Inspected posted daily user operations for InvestOne accounting system and FedInvest, the
   FMB Daily Procedures, and the monthly requirements calendar and determined that these
   schedules and procedures were available.

4. For a selection of months, inspected the monthly requirements calendars and determined that
   these schedules were available.

5. Inspected the InvestOne accounting system job schedule and determined that a job production
   schedule for the InvestOne accounting system was documented.




                                               40
6. Inspected privileges of individuals granted access to make modifications to schedules and job
   control language for production jobs in the mainframe job scheduler and inquired of
   management regarding job responsibilities, and determined that access privileges were
   limited commensurate with job responsibilities.

No exceptions noted.




                                              41
Control Objective 7 – Network Performance Monitoring
Controls provide reasonable assurance that network performance monitoring techniques are
implemented appropriately.
Description of Controls
Users must be connected to the Fiscal Service network in buildings where FMB is supported to
access the InvestOne accounting system. Additionally they must run terminal emulation software
to connect to the FIT-MF environments. Network performance and availability is monitored by
ISS at all times.12

Tests of Operating Effectiveness and Results of Testing

1. Observed FIB staff and noted that terminal emulation software was used to connect to the
   FIT-MF.

2. Observed ISS Command Center staff and noted that monitoring tools were used to monitor
   the performance and availability of Fiscal Service networking equipment, such as switches
   and firewalls.

3. Observed ISS Command Center staff and noted that tools were used to monitor the
   performance and availability of the FedInvest website.

4. Inquired of management and were informed that the ISS Command Center was staffed 24
   hours a day.

No exceptions noted.




12
   Using the following utilities:
A combination of monitoring tools (ManageEngine OP Manager and HP Sitescope) are used to monitor networking equipment such as
switches and firewalls. These tools automatically report any network equipment or application outages to the Network Operations
Center.


                                                             42
TRUST FUNDS MANAGEMENT PROCESSING CONTROLS

Control Objective 8 – Procedures

Controls provide reasonable assurance that management has defined, documented, and
communicated procedures associated with operational areas within the Funds Management
Branch (FMB).

Description of Controls

The purpose of each trust fund is to account for assets for specific programs directed by the
Program Entities, pursuant to specific enabling legislation that created and continues to authorize
the operation of each specific trust fund. The Secretary of the Treasury, through the Fiscal
Assistant Secretary, is responsible for processing certain trust fund activity and reporting this
activity.

FMB services the trust funds in accordance with established laws, fiscal and other Treasury
policies that govern the trust funds. FMB’s responsibilities include establishing accounting
records, processing transactions, determining the timing and condition of transactions,
maintaining reference files, and recording adjustments. FMB records transactions based on
information provided by Fiscal Service, Program Entities, and other organizations.

FMB has defined and communicated procedures regarding the trust fund operations in Standard
Operating Procedures (SOP) manuals. The SOP manuals provide guidelines for processing
transactions including receipts, investments, redemptions, investment income, and disbursements.

Additional reference materials including Federal Government accounting standards; U.S.
Standard General Ledger (USSGL) accounting and reporting requirements; and Treasury-wide
and Fiscal Service- wide accounting and reporting policies are readily available in electronic
format on the Internet. In addition, the SOP manuals provide guidelines for records maintenance
and periodic reporting. The SOP manuals are maintained electronically and include electronic
links to the additional reference materials listed above. FMB employees with access to the FMB
directory have the ability to read the SOP manuals. Access to revise the SOP manuals, which are
password protected, is restricted to only the FMB employees that have been approved by
management.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOP manuals and observed operational areas and determined operational areas
   were operating in accordance with procedures.

2. Inquired of FMB trust fund managers and inspected the SOP manuals online and determined
   the SOP manuals were available for FMB trust fund managers’ reference.

3. Inspected the SOP manuals online and determined that the SOP manuals were stored in a
   read-only format.

No exceptions noted.




                                                43
Control Objective 9 – Receipts Processing

Controls provide reasonable assurance that receipt transactions are authorized, processed, and
recorded accurately in the proper fiscal year.

Description of Controls

FMB has documented policies and procedures for staff to follow for the processing of receipt
transactions.

All Trust Funds Except the Unemployment Trust Fund

Office of Tax Analysis (OTA), Internal Revenue Service (IRS), Customs and the Program
Entities determine the trust fund receipts. The receipts primarily include:

        Excise taxes – Treasury’s OTA estimates the monthly excise taxes based on
         projected excise tax receipts and sends the estimate to Government-wide
         Accounting (GWA) and FMB. On two specified work days of each month,
         GWA issues a warrant (SF-1017) to increase the respective trust fund’s account,
         with each warrant containing exactly half of the OTA estimated monthly excise
         taxes. GWA sends FMB email notification that the warrants have been
         processed in Central Accounting and Reporting System (CARS). FMB pulls the
         warrants from CARS and verifies the warrants to the estimates received from
         OTA. At the end of each calendar quarter the IRS certifies the excise taxes
         actually collected and sends the certification to GWA. The IRS generally
         certifies excise taxes within two quarters after the taxes are estimated (i.e., 1 st
         quarter estimate is certified in the 3rd quarter). GWA calculates the excise tax
         adjustment as the difference between the excise taxes estimated by OTA and
         excise taxes certified by the IRS. GWA enters a warrant in CARS to increase or
         decrease the respective trust fund’s account and sends FMB email notification
         that the warrants have been processed in CARS. GWA also emails the
         adjustment documentation prepared by the IRS to FMB. FMB prints the
         warrants from CARS and agrees the warrants to the adjustment documentation
         prepared by the IRS. The IRS determines the amount of excise tax
         refunds/credits and sends the adjustment to FMB to be processed. FMB reports
         the tax adjustments received prior to issuance of the annual financial reports in
         the annual financial reports to which the tax adjustment relates to; however, FMB
         associated investment or redemption transactions are processed on the actual date
         FMB receives the warrant.

        FMB records tax adjustments following the process discussed above and
         processes the related investment purchase/redemption when recorded the day the
         tax adjustment information is received. In addition, for adjustments received
         after September 30, the trust fund manager also reviews the tax adjustments to
         identify adjustments that relate to the prior fiscal year. For those adjustments that
         do relate to the current fiscal year, the trust fund manager reviews the tax
         adjustments received after September 30 to identify tax adjustments that relate to
         the prior fiscal year. For tax adjustments that relate to the prior fiscal year, the
         trust fund manager enters the tax adjustment into InvestOne (i.e., adjusts tax
         revenue and tax receivable/payable) and provides the tax adjustment supporting
         documentation to the reviewing trust fund manager. The reviewing trust fund
         manager compares the tax adjustment supporting documentation to InvestOne to
                                                  44
    ensure that the tax adjustment is properly recorded (i.e., tax revenue and tax
    receivable/payable) and documents approval on the tax adjustment
    documentation.

   Oil Spill Drawbacks – Monthly the U.S. Customs Department submits to GWA a
    Statement of Transaction report (SF-1220) which charges the Oil Spill Liability
    Trust Fund for claims made by oil importers on excise tax charges. FMB
    receives a copy of the SF-1220 from the U.S. Customs Department via email and
    records a negative receipt to reduce excise taxes in the Oil Spill Liability Trust
    Fund for these claims.

   Federal Insurance Contribution Act (FICA) and Self-Employment Contribution
    Act taxes (SECA) – Amounts equivalent to 100 percent of FICA and SECA
    taxes are designated to be transferred to specified trust fund accounts. Treasury’s
    OTA estimates the monthly taxes, determines the amounts to be transferred to the
    appropriate trust funds, and sends the estimate to GWA. GWA sends FMB the
    daily FICA and SECA tax deposit information. FMB allocates the deposits to the
    appropriate trust funds based on the monthly OTA estimates and provides the
    investment amounts to GWA. GWA confirms the investment totals back to FMB
    and prepares the tax warrant. After each month-end, FMB agrees the daily
    warrants to the amounts reported by GWA on the CARS Account Statement for
    each trust fund. Estimated tax collections are adjusted in subsequent transfers to
    the amount of actual tax receipts certified by the IRS and the respective Program
    Entities.

   Customs Duties – The Department of Homeland Security’s (DHS) Customs and
    Border Protection’s Office of Border Patrol notifies FMB monthly of actual
    receipts collected and deposited in the Sport Fish Restoration and Boating Trust
    Fund and Harbor Maintenance Trust Fund. Customs notifies FMB the first
    workday of the month the actual amounts for the previous month by sending
    FMB an email.

   Fines, penalties, and cost recoveries – Collected fines, cost recoveries, and
    penalties are transferred from the collecting agencies directly to the trust funds’
    accounts. The collecting agencies fax/email notification of the receipts to FMB.
    In the case of the GCRTF, the collecting agency (DOJ), initiates an IPAC to pay
    the collected amount to the trust fund. In most cases, the notification is also
    mailed by the collecting agency to FMB.

   Civil penalties and damages – Agencies mandated to collect civil penalties and
    fines for deposit into a specific trust fund send FMB a letter or Intragovernmental
    Payment and Collection (IPAC) transaction report. These documents list the
    civil penalties and damages that are collected and the 3 percent administrative
    cost to be reimbursed to the trust fund. FMB prepares a separate letter requesting
    the collected penalties and damages, and the administrative fee withheld by the
    Federal agency and sends the letter to GWA. GWA issues a warrant to FMB via
    CARS.

   Appropriations – Certain Program Entities receive annual appropriations to fund
    payments to the trust funds in accordance with legislation. The Program Entities


                                            45
        process the transfer via the IPAC system to allocate the funds to the proper trust
        funds. FMB receives the IPAC transaction report from the GOALS system.

       Donated revenue – Donated revenue represents gifts from individuals. FMB
        receives receipt reports from Program Entities throughout the month.

       Transfers in from program agencies – Transfers are the result of an IPAC or SF
        1151 Non-Expenditure Transfers that FMB receives from Program Entities. In
        the case of the PCORTF, a letter from CMS informs FMB of the amounts to be
        transferred from HI and SMI to the PCORTF. FMB then records the transfer
        from HI and SMI and the receipt to PCORTF on the SF224 (CTA).

       Collected premiums and Federal matching funds – Amounts withheld from
        Social Security beneficiary checks and the related Federal matching funds are
        transferred by the Program Entities to the appropriate trust funds using the SF-
        224(CTA) and the IPAC system. FMB receives the daily receipt reports from the
        Program Entities and the IPAC transaction report from the GOALS system.

FMB submits, via CARS, a CTA Statement of Transaction report for certain transactions, which
posts to the central accounting system (STAR), and the appropriate Trust Fund accounts are
adjusted for the refunds/credits.

FMB processes receipt notifications received prior to 3:00 pm EST the day they are received and
the next business day if the notifications are received after this deadline. Using the receipt
documentation noted above, the trust fund manager: 1) enters the receipts into the Fund
Checklist/IRR; 2) enters the receipts into the InvestOne accounting system; 3) enters the
investment/redemption request into FedInvest system, which processes the investment purchase,
records the investment in InvestOne, and generates a confirmation; 4) prints the investment
confirmation; 5) prepares and signs the DTSP; 6) provides the DTSP to the reviewing trust fund
manager for review. For the Gulf Coast Restoration Trust Fund (GCRTF), the trust fund manager
1) enters the receipt in a manually maintained EXCEL Cash Sheet and creates a Journal
Discoverer Report; 2) prepares an entry that will post the receipt transaction into the Oracle
accounting system; 3) enters the investment/redemption request into the FedInvest system, which
processes the investment purchase, records the investment in InvestOne, and generates a
confirmation; 4) prints the investment confirmation; 5) prepares and signs the DTSP; 6) provides
the DTSP to the reviewing trust fund manager for review.

The trust fund manager compares the transaction from InvestOne (i.e., the Cash Forecasting
Report)to the transaction documentation (i.e., Treasury warrants, excise tax receipts, FICA and
SECA tax deposits, agency program letters, reports, or email/fax notifications, IPAC documents,
or SF-1151 Non-Expenditure Transfers) and investment confirmation to ensure that the
transaction is properly recorded and classified. The trust fund manager documents completion of
the comparison by signing the DTSP. For the GCRTF, the trust fund manager compares the
transaction from Oracle (Journal Discoverer Report) to the EXCEL Cash Sheet and the
transaction documentation.

The reviewing trust fund managers reviews the supporting documentation to ensure that the
receipts are authorized by legislation, received from the appropriate Program Entities, and do not
contain any obvious errors. The reviewing trust fund managers also compare the receipt
supporting documentation to the InvestOne Cash Forecasting Report the Fund Checklist/IRR, and
investment confirmation to ensure that the receipt is properly recorded, and documents approval
by digitally signing the DTSP after the review is complete. For the GCRTF the reviewing trust
                                               46
fund manager compares the transaction from Oracle (Journal Discoverer Report) to the EXCEL
Cash Sheet, transaction documentation, and investment confirmation to ensure that the receipt is
properly recorded and documents approval on the DTSP.

The Unemployment Trust Fund (UTF)

The primary receipts for the UTF are as follows:

       Federal unemployment taxes – The Federal unemployment taxes fund the
        Employment Security Administration Account established pursuant to Title IX,
        section 901(a), of the Social Security Act. This account funds administrative
        expenses of the UTF and provides intra-fund transfers to the other Federal
        accounts within the UTF. The Budget Reports Division of GWA prepares
        warrants based on collections reported to Fiscal Service through CIR. The
        warrants are forwarded to FMB.

       Federal Employees Compensation Act (FECA) accounts receivable – Federal
        agencies make payments on FECA accounts receivable pursuant to Title IX,
        section 909, of the Social Security Act to fund unemployment benefits for former
        Federal civilian and military personnel. Federal agencies make payments to the
        Department of Labor using the IPAC System. The Department of Labor receives
        IPAC transactions, maintains the FECA accounts receivable, and deposits
        collections in the UTF via CTA/SF-224.

       State unemployment taxes – FMB established 53 separate Unemployment
        Insurance (UI) book accounts for the States, the District of Columbia, Puerto
        Rico, and the Virgin Islands. Daily, these Program Entities use FEDWIRE to
        transfer deposits from local banks to the Federal Reserve Bank in New York to
        the UI book accounts. These deposits are summarized on a SF-215 Deposit
        Summary form (SF-215) by Pittsburgh National Corporation (PNC). The
        Federal Reserve Bank in New York accesses CIR, a Treasury on-line system in
        which deposit and withdrawal information is maintained at the detail and
        summary level, and uploads the deposit information into the UTF activity
        location code. The trust fund manager retrieves the amount of the Program
        Entity unemployment tax receipts through read-only access to CIR.

       Deposits by the Railroad Retirement Board – Each day FMB checks for any
        Railroad Retirement Board receipt reports forwarded from the Railroad
        Retirement Board to be included in the Railroad Unemployment Insurance and
        Administration Accounts. FMB agrees the receipts from the receipt report to the
        amounts reported by the Railroad Retirement Board on the CTA/SF-224.

The trust fund manager processes receipts received prior to 3:00 pm EST the day they are
received and the next business day if the receipts are received after 3:00 pm EST. The trust fund
manager: 1) enters the receipts into InvestOne (Oracle for the GCRTF); 2) enters the investment
into FedInvest, which processes the investment purchase, records the investment in InvestOne,
and generates a confirmation; 3) prints the investment confirmation; and 4) provides the receipt
supporting documentation along with the Fund Checklist/IRR and investment confirmation to the
reviewing trust fund managers.

The reviewing trust fund manager compares the transaction as recorded within InvestOne (or
Oracle) to the transaction documentation (i.e., Automated Standard Application for Payments
                                               47
System (ASAP) reports, CIR reports, letters from the Program Entities and IPAC reports) to
ensure that the transaction is properly recorded and classified. The trust fund manager documents
completion of the comparison by signing DTSP.

The reviewing trust fund manager reviews the supporting documentation to ensure that the
receipts are authorized by legislation, are received from the appropriate Program Entities, and do
not contain any obvious errors. In addition, the reviewing trust fund managers compares the
receipt supporting documentation to InvestOne, the IRR, and investment confirmation to ensure
that the receipt is properly recorded and approves the DTSP by digitally signing it

Complementary Program Entity Controls

Program Entities should establish controls to:

   Verify that only authorized receipts are deposited into the trust funds.

   Review and approve receipt amounts.

   Provide receipt information to FMB within the required time frames.

   Review the monthly financial reports provided by FMB to ensure that receipts are posted
    accurately. (Except for UTF)

Tests of Operating Effectiveness and Results of Testing

1. Inspected documented SOPs and observed the trust fund managers and reviewing trust fund
   managers process receipts and determined that receipt transactions were processed in
   accordance with the procedures.

2. For a selection of receipts processed, inspected supporting receipt documentation and IRRs
   and determined that the receipts were documented and authorized.

3. For a selection of receipts processed, inspected supporting receipt documentation, IRR, Cash
   Forecasting Report, investment confirmation, and the InvestOne accounting system and
   determined that the receipts were reviewed and approved by the trust fund manager and that
   the receipts were processed and recorded accurately in the proper period.

4. For a selection of tax adjustments processed subsequent to year end (i.e., September 30,
   2013), inspected the tax adjustment supporting documentation and the InvestOne accounting
   system and determined that the tax adjustments were reviewed and approved by the
   reviewing trust fund manager and that the tax adjustments were processed and recorded
   accurately in the proper period.

No exceptions noted.




                                                 48
Control Objective 10 – Investment Requests

Controls provide reasonable assurance that investment requests are authorized, processed, and
recorded accurately in the proper period.

Description of Controls

FMB has documented policies and procedures for staff to follow for the processing of investment
requests.

Pursuant to the trust funds’ enabling legislation, FMB invests the portions of the trust funds’
assets that are not necessary to meet current withdrawals. In accordance with legislation, FMB
purchases non-marketable Treasury securities that are held in the name of the Secretary of the
Treasury for the trust funds. The Treasury securities are purchased and redeemed through the
Federal Investments Branch (FIB). FMB determines the type and term of the Treasury security to
purchase based on the following factors:

     Type of security allowed by legislation
     Division of Federal Investment’s guidelines for investing
     Discussions with Program Entities to determine their expected future cash flow
      needs
     Guidance issued by the Office of Fiscal Assistant Secretary

FMB purchases securities using the FedInvest system that is maintained by FIB and ISS. For trust
funds that are invested continuously in overnight securities, InvestOne automatically redeems and
reinvests the overnight securities. The trust fund manager prints a Cash Forecasting Report
InvestOne that displays the previous day’s overnight redemptions and current reinvestments. The
trust fund manager compares the reinvestments (i.e., “Buy” transactions) to the previous day’s
maturity to verify that they net to zero, investigates and resolves any differences, and signs the
DTSP. The reviewing trust fund managers review each Cash Forecasting Report and documents
approval by signing the DTSP.

For all trust funds other than the GCRTF, the trust fund manager determines the amount to invest
by inspecting the Cash Forecasting Report from the InvestOne accounting system. The Cash
Forecasting Report summarizes the daily receipts and disbursements that have been posted within
InvestOne. For the GCRTF, the fund manager determines the amount to invest by maintaining an
EXCEL Cash Sheet that includes any maturities and/or interest payments that need to be
reinvested, current day receipts and disbursement transactions that will be uploaded to Oracle,
and the current day reinvestment transactions. The trust fund manager compares the
reinvestments (i.e., “Buy” transactions) to the maturities, interest payments, receipt and
disbursement transactions, verifies that they net to zero, investigates and resolves any differences,
and signs the DTSP. The reviewing trust fund manager reviews the EXCEL Cash Sheet, the
Journal Discoverer Report, along with the supporting documents, and documents approval by
digitally signing the DTSP.

To purchase an investment, the trust fund manager prepares and enters the investment request
into FedInvest and FedInvest generates an on-line Investment Confirmation. Certificate of
Indebtedness (C of I) par value securities have a maturity date of June 30 th. In accordance with
Treasury fiscal policy, FIB automatically reinvests the par value securities upon maturity. On the
maturity date, InvestOne processes the maturity automatically and FIB manually processes the
reinvestment, into InvestOne. The corresponding confirmations are available in FedInvest.

                                                 49
For certain other selected investment requests, the trust fund manager manually prepares and
provides the IRR to FIB. This occurs when an investment or redemption needs to be entered for a
non-business day or a security is purchased at auction price. In these cases, FIB enters the
investments or redemptions into InvestOne.

Upon entry of the transaction into FedInvest, an on-screen confirmation of the transaction is
presented to the purchaser.

The trust fund manager compares the IRR investment type, amount, purchase date, and maturity
date to the Investment Confirmation. After investigating and resolving any differences, the trust
fund manager approves the IRR and the Investment Confirmation. The trust fund manager
combines the Fund Checklist, the IRR, Investment Confirmation, the Cash Forecasting Report,
and the receipt/disbursement source documentation in the DTSP for the reviewing trust fund
managers. The trust fund manager digitally signs the DTSP. For the GCRTF, the trust fund
manager, combines the Fund Checklist/IRR, Investment Confirmation, the EXCEL Cash Sheet,
the Journal Discoverer Report, and the receipt/disbursement source documentation in the DTSP
for the reviewing trust fund managers.

The reviewing trust fund managers inspects the Fund Checklist/IRR, the Investment
Confirmation, the Cash Forecasting Report, and the receipt/disbursement source documentation
to ensure that the proper amount was invested, to confirm that the trust fund manager purchased
an authorized investment, and to ensure that the investment amount and timing is consistent
throughout all of these documents. For the GCRTF, the reviewing trust fund manager inspects
the Fund Checklist/IRR, Investment Confirmation, the EXCEL Cash Sheet, the Journal
Discoverer Report, and the receipt/disbursement source documentation. The reviewing trust fund
managers document their approval on the DTSP by digitally signing it.

Complementary Program Entity Controls

Program Entities should establish controls to:

   Verify that the type and term of the investments purchased are appropriate in relation to
    expected cash flow needs.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund managers and reviewing trust fund managers
   process investment requests and determined that the investment requests were processed in
   accordance with the procedures.

2. For a selection of investment purchases, inspected the Investment/Redemption Requests, the
   Investment Confirmation, Cash Forecasting Report, supporting receipt/disbursement
   documentation, and the InvestOne accounting system and determined that the investment
   transactions were documented, authorized in accordance with legislation, and processed and
   recorded accurately and in the proper period. For a selection of GCRTF investment
   purchases, inspected the Fund Checklist/IRR, Investment Confirmation, the EXCEL Cash
   Sheet, the Journal Discoverer Report, and the receipt/disbursement source documentation in
   the DTSP and determined that the investment transactions were documented, authorized in
   accordance with legislation, and processed and recorded accurately and in the proper period.

3. For a selection of investment purchases, inspected the Investment/Redemption Requests and
   the Investment Confirmation and determined that the reviewing trust fund manager reviewed
                                                 50
    and approved the investment purchases. For a selection of GCRTF investment purchases,
    inspected the Fund Checklist/IRR, Investment Confirmation, the EXCEL Cash Sheet, the
    Journal Discoverer Report, and the receipt/disbursement source documentation and
    determined that the reviewing trust fund manager reviewed and approved the investment
    purchase.

4. Observed and noted a trust fund manager enter a selected investment purchase into FedInvest,
   inspected the on-screen confirmations received by FMB and noted that on-screen
   confirmation confirmed the successful recording of the investment purchase into FedInvest
   and InvestOne.

5. For a selection of days, inspected the cash forecasting report from trust funds that invest
   continuously in overnight securities and determined that a FMB trust fund manager
   performed a comparison of the reinvestment to the previous day’s maturity, that the trust fund
   manager signed the DTSP, that the reviewing FMB trust fund manager reviewed and signed
   the DTSP, and that any differences were resolved. For a selection of GCRTF reinvestments,
   inspected the EXCEL Cash Sheet, the Journal Discoverer Report, along with the supporting
   documents, and determined that a FMB trust fund manager signed the DTSP, that the
   reviewing FMB trust fund manager reviewed and signed the DTSP, and that any differences
   were resolved.

No exceptions noted.




                                               51
Control Objective 11 – Investment Income

Controls provide reasonable assurance that investment income, amortization and gains or losses
are processed and recorded accurately in the proper period.

Description of Controls

FMB has documented policies and procedures for staff to follow for the processing of
transactions related to investment income, amortization, and gains/losses.

Interest Payments Received

The trust funds receive interest daily for one-day securities, semi-annually on June 30 and
December 31 for par value (C of I’s) and semi-annually at various dates for market-based bonds
and notes. The market-based bills do not make periodic interest payments therefore interest
income is equal to the purchased discount, which is received when the securities mature or are
redeemed. Interest received is a receipt to the trust funds and is either used to meet a Program
Entities’ disbursement request or is reinvested.

At the time an investment purchase is recorded, the investment terms (i.e., cost,
discount/premium, interest rate, issue date, maturity date, amortization/accretion method,
payment frequency, payment month and day, and first coupon date) are established based on the
security purchased. InvestOne automatically calculates and records interest income based on the
investment terms in the system.

Accrued Interest Receivable

Accrued interest receivable is recorded by FMB for accounts that hold notes or bonds. One-day
securities mature on the next business day and therefore generally do not accrue interest. For
one-day securities purchased on Friday, interest accrues until the date of maturity.

At the time an investment purchase is recorded, the investment terms (i.e., cost,
discount/premium, interest rate, issue date, maturity date, amortization/accretion method,
payment frequency, payment month and day, and first coupon date) are entered into InvestOne by
FIB. InvestOne automatically calculates and records interest accruals based on the corresponding
investment terms. The trust fund manager and reviewing trust fund managers review the interest
balances on the monthly trial balance reports for reasonableness and to ensure that the interest
balances are properly recorded and classified and documents approval on the monthly financial
review checklist.

Discount/Premium

FMB purchases non-marketable market-based bills at a discount and non-marketable market-
based bonds and notes at a discount or premium.

At the time an investment purchase is recorded, the investment terms (i.e., cost,
discount/premium, interest rate, issue date, maturity date, amortization method, payment
frequency, payment month and day, and first coupon date) are entered into InvestOne. InvestOne
automatically calculates and records amortization of discount/premium based on the
corresponding investment terms. InvestOne calculates amortization for bills (i.e., short-term
securities) using the straight-line method and for bond/notes (i.e., long-term securities) using the
level yield method that approximates the interest method.
                                                52
On a monthly basis, the trust fund manager and reviewing trust fund manager reviews the trial
balance report which lists amortization of discounts and premiums and compares it to the
financial report and documents approval on the monthly financial review checklist.

Gains and Losses

Gains and losses may occur each time a market-based security is redeemed prior to maturity.

When a security is redeemed, FedInvest processes the redemption, including the proceeds of the
redemption, into InvestOne. InvestOne calculates and records a gain or loss based on the
difference between the redemption proceeds and book value (i.e., cost plus/minus amortized
discount/premium). The trust fund manager and reviewing trust fund manager review the
gains/losses on the monthly trial balance reports for reasonableness and to ensure that the
gains/losses are properly recorded and classified and documents approval on the monthly
financial review checklist.

Complementary Program Entity Controls

Program Entities should establish controls to:

   Verify that the type and term of the investments purchased and related investment income are
    appropriate in relation to expected cash flow needs.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed trust fund managers and reviewing trust fund managers process
   and record interest, and amortization transactions and determined that the processing was
   performed in accordance with the procedures.

2. For a selection of transactions, inspected interest, gain/loss, and amortization documentation,
   inspected the InvestOne accounting system, and determined that transactions were
   documented, mathematically accurate, processed and recorded accurately and in the proper
   period.

3. For a selection of months, inspected the monthly financial review checklist and the monthly
   trial balance and determined that the trust fund managers reviewed the interest balances for
   reasonableness.

4. For a selection of months, inspected the monthly financial review checklist, amortization
   report, trial balance report, and financial report, and determined that the trust fund managers
   completed the reconciliations.

5. For a selection of months, inspected the monthly financial review checklist and the monthly
   trial balance and determined that there were no gains/losses in the testing period. Therefore,
   we could not determine that the trust fund managers reviewed the gains/losses for
   reasonableness.

No exceptions noted.




                                                 53
Control Objective 12 – Redemption Requests

Controls provide reasonable assurance that redemption requests are authorized, processed, and
recorded accurately in the proper period.

Description of Controls

FMB has documented policies and procedures for staff to follow for the processing of redemption
requests.

Investments are redeemed primarily when the Program Entities request transfers from the trust
funds. For trust funds that invest in market-based securities, the trust fund manager nets the
receipts, investment maturities, and the disbursements. If the net result is a reduction, a
redemption is prepared. If the net results in an increase, an investment is prepared. (See Control
Objective 10) For trust funds that invest in par value securities, the trust fund manager generally
invests receipts and redeems investments for disbursements as separate transactions.

When redeeming a market-based security, the trust fund manager generally selects the security
with the earliest maturity date. When redeeming a par value security, InvestOne selects the
security in the following order: earliest maturity date, lowest prevailing interest rate, and first
security in first security out.

FMB redeems securities by completing the request in FedInvest, which is maintained by FIB and
ISS. To redeem a security, the trust fund manager completes the following steps:

       The trust fund manager enters, reviews and submits the redemption request in
        FedInvest, which processes the redemption request and prepares an on-line
        Redemption Confirmation.

For redemptions on non-business days, June 30 rollovers, and other selected redemption requests,
the trust fund manager manually prepares the IRR, and provides a copy to FIB. FIB manually
executes the redemption in InvestOne.

C of I par value securities have a maturity date of June 30th. In accordance with Treasury fiscal
policy, FIB automatically reinvests the par value securities upon maturity. On the maturity date,
InvestOne processes the maturity automatically and FIB manually processes the reinvestment into
InvestOne. The corresponding confirmations are available in FedInvest.

Market-based securities have various maturity dates. On the maturity date, InvestOne processes
the maturity and creates a confirmation, which is made available in FedInvest.

The trust fund manager provides the Redemption Confirmation and the IRR to the reviewing trust
fund manager. The reviewing trust fund manager compares the investment type, amount,
redemption date, and the maturity date from the Redemption Confirmation to the IRR to verify
that the redemption was authorized and that the redemption amount and timing is consistent
throughout these documents. Any differences are investigated and resolved. The reviewing trust
fund manager documents approval on the DTSP.




                                                54
Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund managers and reviewing trust fund managers
   process and record redemption transactions and determined that the transactions were
   processed in accordance with the procedures.

2. For a selection of redemption transactions, inspected the Redemption Confirmation, the IRR,
   and the InvestOne accounting system and determined that the transactions were documented,
   reviewed, and approved by the reviewing trust fund manager and processed and recorded
   accurately in the proper period.

No exceptions noted.




                                             55
Control Objective 13 – Disbursement Processing

Controls provide reasonable assurance that withdrawals/disbursements are authorized, processed,
and recorded accurately in the proper period.

Description of Controls

FMB has documented policies and procedures for staff to follow for the processing of
disbursements.

All Trust Funds

Disbursements primarily consist of transfers to Program Entities, administrative expenses, and
interest penalties under the Cash Management Improvement Act. The Program Entities are
responsible for verifying that the disbursement is in compliance with legislation, determining the
amount of the disbursements, and requesting the disbursements.

The Program Entities initiate disbursement requests via email/fax, IPAC reports, or telephone
calls to the respective trust funds manager. Each telephone request is followed by an
emailed/faxed disbursement confirmation citing the applicable legislation and signed by the
appropriate Program Entity representative. The Program Entity may also mail the disbursement
confirmation to FMB.

FMB processes disbursement requests received prior to 3:00 pm EST the day they are received or
on the next business day if received after this deadline. The trust fund manager records the
disbursement in InvestOne. When the disbursement confirmation is received by email/fax, the
trust fund manager matches the confirmations to the telephone request. The trust fund manager
reviews the request to ensure that it is received from the appropriate Program Entity and does not
contain any obvious errors. The trust fund manager also reviews the account balances to ensure
the trust fund has sufficient funds to cover the request. For the Gulf Coast Restoration Trust Fund
(GCRTF), the trust fund manager enters the disbursement in a manually maintained EXCEL Cash
Sheet and prepares entries that will post the disbursement transaction into the Oracle accounting
system and produces a Discoverer Journal Report. The trust fund manager then enters the
investment/redemption request into the FedInvest system, which processes the
investment/redemption, records the investment in InvestOne, and generates a confirmation. The
trust fund manager then prints the investment confirmation and prepares and signs the DTSP.

FMB uses the automated CARS system, maintained by Governmentwide Accounting, to process
non-expenditure transfers.

GWA configured CARS to authorize FMB to transfer funds from the trust fund accounts to
Program Entities’ accounts but not to transfer funds from Program Entities’ accounts to the trust
fund accounts.

The trust fund manager enters the transfer into the CARS system, in accordance with the Program
Entity’s instruction. CARS reflects a transfer status of “SAVED” for a transfer, until the transfer
is certified. The trust fund manager provides the transfer request documentation to the reviewing
trust fund managers.

The reviewing trust fund managers compare the disbursement request to the Non-Expenditure
Transfers FMB Trust Fund Accounts Transaction Report from InvestOne. The reviewing trust
fund manager accesses CARS to verify that the transfer is designated to the proper entity, then
                                                56
certifies the transfer request in CARS. CARS changes the transfer status to “AGENCY
CERTIFIED”. The reviewing trust fund manager documents completion on the Fund Checklist
and saves the Non-Expenditure Transfer with the funds daily work. Another reviewing trust fund
manager compares the disbursement details and amount from the Non-Expenditure Transfers
FMB Trust Fund Accounts Transaction Report from InvestOne to a print screen from CARS. The
reviewing trust fund manager also compares all transactions with an “AGENCY CERTIFIED”
status on the print screen from CARS to the Non-Expenditure Transfers TFMB Trust Fund
Accounts Transaction Report from the InvestOne accounting system to ensure the transactions
have been properly entered. The reviewing trust fund manager documents his/her completion of
the comparisons by signing the daily GWA packet and the daily review checklist.

After the transfer is certified by FMB, GWA authorizes CARS to send the disbursement request
to the STAR system using an automated interface. The STAR system transfers the funds from
the trust fund account to the agency account, and CARS changes the status of the transfer request
to “POSTED” in CARS. The trust fund manager accesses the CARS pending transaction file to
monitor the transfer status and take a necessary action to correct errors in rejected transactions
and resubmit the transfers to Fiscal Service.

The trust fund manager provides the disbursement requests (i.e., emails/faxes, SF-1081s (Voucher
and Schedule of Withdrawals and Credits form), or IPAC reports) to the reviewing trust fund
manager. On a daily basis, the reviewing trust fund manager compares disbursements from
InvestOne (i.e., the Cash Forecasting Report) to the disbursement requests to ensure the
disbursement is properly recorded. The reviewing trust fund manager documents approval on the
DTSP. For the GCRTF, the reviewing trust fund manager reviews the EXCEL Cash Sheet,
Journal Discoverer Report, along with the supporting documentation, and documents approval by
digitally signing the DTSP.



The Unemployment Trust Fund-State Unemployment Benefit Disbursements

The Program Entities (i.e., State Employment Agencies) are responsible for verifying that the
disbursements are in compliance with legislation, determining the amount of the disbursements,
and requesting the disbursements. Program Entities must submit all disbursement requests using
the Automated Standard Application for Payments (ASAP). Each day, Program Entities must
enter their disbursement requests into ASAP by 6:00 pm EST if requesting a wire transfer and by
11:59 pm EST if requesting an Automated Clearing House payment. The Program Entities may
request a disbursement from their Unemployment Insurance (UI) account, Reed Act account, the
Extended Unemployment Compensation Account (EUCA), the Federal Employment
Compensation Account (FECA), or the Federal Additional Unemployment Compensation
Account (FAUC). A written disbursement confirmation is not required from the Program
Entities. Fiscal Service transfers funds from the trust fund account to the Program Entity's bank
account and sends the trust fund manager the Transaction by Account ID reports.

During the morning of the next business day, ASAP transmits a file to InvestOne that contains all
of the disbursement and transfer requests. The trust fund manager reviews the InvestOne pending
disbursement and transfer requests file. The trust fund manager compares the InvestOne pending
disbursement and transfer requests report to the ASAP transaction reports.

After the trust fund manager verifies and reconciles these reports, the trust fund manager posts the
transaction to the Program Entities’ accounts within InvestOne and provides the reports to the

                                                57
reviewing trust fund manager. The reviewing trust fund manager reviews and approves the
reports. Any differences are investigated and resolved.

Complementary Program Entity Controls

Program Entities should establish controls to:

   Verify that only authorized disbursement requests are used for withdrawals from the trust
    funds.

   Review and approve the disbursement requests.

   Provide disbursement requests to FMB within the required time frame.

   Ensure that the systems they use to support on-line access to ASAP are approved, tested, and
    properly monitored. (UTF only)

   Restrict ASAP access to authorized individuals. (UTF only)

   Verify that disbursement requests are accurately entered into ASAP. (UTF only)

   Review the monthly trust fund financial reports provided by FMB to ensure that
    disbursements are posted accurately.

   Reconcile fund balance with Treasury from their records to Fiscal Service records to ensure
    that they receive the proper trust fund disbursements.

   Reconcile disbursement records to their bank’s records to ensure that they receive the proper
    trust fund disbursements. (UTF only)

Tests of Operating Effectiveness and Results of Testing

1. Inspected documented SOPs and observed the trust fund managers and the reviewing trust
   fund managers process and record disbursement transactions and determined that the
   transactions were processed in accordance with the procedures.

2. For a selection of disbursement transactions, inspected the Program Entity disbursement
   requests, print screen from the CARS system, the Non-Expenditure Transfers FMB Trust
   Fund Accounts Transaction Report, Cash Forecasting Report, IRR and FedInvest
   confirmation, the InvestOne accounting system (e.g., Cash Forecasting Report), and the daily
   checklist and determined that the transactions were documented, reviewed and approved by
   the reviewing trust fund manager, and processed and recorded accurately in the proper period.

    For a selection of UTF disbursement transactions inspected amount and date from the DTSP
    checklist to the underlying reports (i.e. EUCA Pending Report for EUCA disbursements,
    ASAP report to total disbursements, DATE/VSTE reports and FedInvest confirmation) and
    determined the disbursement transactions were reviewed and approved by the reviewing trust
    fund manager, and processed and recorded accurately in the proper period.




                                                 58
3. For a selection of ASAP transaction reports, inspected the reconciliation from the ASAP
   transaction report to the pending transactions report in the InvestOne accounting system and
   determined that the reconciliations were completed, the transactions were processed and
   recorded accurately in the proper period, and the reviewing trust fund manager reviewed and
   approved the reconciliations.

No exceptions noted.




                                              59
Control Objective 14 – Records Maintenance

Controls provide reasonable assurance that the documentation exists to support all transactions
and is filed in reference files, which are readily available.

Description of Controls

Transaction support is maintained in paper or electronic format. The supporting documentation is
organized in separate work folders for each trust fund. The key transaction records and files are
as follows:

       Transaction supporting documentation:
        - Receipt notification documents, such as OTA tax estimate/adjustment letters,
            IRS tax refund/credit letters, Program Entity receipt letters/reports, Deposit
            Summary Form (SF-215), and CIR reports.
        - IPAC transaction reports
        - CTA/SF-224 worksheet generated from InvestOne
        - GWA-issued warrants (SF-1017)
        - Investment and Redemption Requests
        - Investment and Redemption Confirmations
        - Disbursement request letters from Program Entities
        - Non-Expenditure Transfer Authorization (SF-1151)
        - ASAP Transaction by Account ID reports (UTF Only)
        - ASAP disbursement and transfer request files and reports (UTF Only)
        - InvestOne pending transactions report (UTF Only)
     Cash forecasting report
     Fund Checklist
     Daily Transaction Support Package
     Monthly financial review checklist
     CTA/CARS Account Statement
     FIB-generated Monthly Statement of Account
     Monthly Financial Reconciliation
        -- InvestOne to Oracle Trial Balance report reconciliations
        - InvestOne Trial Balance
            GWA Account Statement
        - General Ledger Account Reconciliations
        - Budgetary to Proprietary Account Reconciliations
-   Financial Statement Package
     Financial Statement Package:
        - Trial Balance reports
        - Balance Sheet
        - Income Statements

       UTF Internet Account Statements (UTF only)
       FUA Pending Report (UTF only)
       ASAP transaction report (UTF only)
       UTF InvestOne accounting system Borrowing Reports (UTF only)




                                               60
Tests of Operating Effectiveness and Results of Testing

1. For a selection of transactions, reconciliations, and reports, inspected supporting
   documentation and determined that documentation was maintained and available.

No exceptions noted.




                                            61
Control Objective 15 – Reporting

Controls provide reasonable assurance that reports provided to the Program Entities are accurate,
prepared on a consistent basis, and fairly present the information they purport to display.

Description of Controls

FMB has documented policies and procedures for staff to follow for the generation of reports.

All Trust Funds Except the Unemployment Trust Fund

Upon completion of daily processing of receipts, disbursements and investment transactions in
InvestOne, the trust fund manager extracts and uploads the transactions into the Oracle. Each
day, the trust fund manager prepares a summary reconciliation of InvestOne and Oracle account
balances, investigates and resolves any differences, and documents completion on the
reconciliation log. The process is similar for the GCRTF but the daily processing of receipts and
disbursements are processed in Oracle. No receipt and disbursement data is maintained within
InvestOne for the GCRTF.

At the end of the monthly processing cycle, the trust fund managers prepare the financial
statement package for each trust fund. The trust fund manager is responsible for transmission of
the financial statement package, by electronic mail to Fiscal Service Web Support for posting on
the TreasuryDirect website.

The trust fund manager completes the financial reconciliation package, documents completion of
the monthly financial review checklist, digitally signs the package and submits the package to the
reviewing trust fund manager for review and approval. The reviewing trust fund manager
reviews the package and documents approval via digital signature on the financial review
checklist. Components of the financial reconciliation package and procedures performed on each
component by the trust fund manager and reviewing trust fund manager are as follows:

       InvestOne to Oracle trial balance report reconciliations – Compare the InvestOne and
        Oracle trial balance ending balances and investigate and resolve any differences.
       Fund Balance with Treasury reconciliation – Prepare a reconciliation worksheet
        comparing InvestOne/Oracle trial balances to the CARS Account Statement. Investigate
        and resolve any differences.
       Investment Reconciliation – Prepare a reconciliation worksheet comparing
        InvestOne/Oracle trial balances to FIB investment activity data. Investigate and resolve
        any differences.
       Budgetary to Proprietary Reconciliations - Prepare budgetary to proprietary account
        reconciliations to ensure complete and accurate budgetary account posting for all
        recorded transactions. Investigate and resolve any erroneously posted transactions or out-
        of-balance relationships identified.
       Schedules of Assets and Liabilities and Schedules of Activity – Review the schedules for
        format and presentation and compare the schedules to the trial balance reports.
       Schedules of Misstatements – Prepare a schedule outlining any identified line item
        misstatements for any report within the monthly financial statement package. The
        reviewing trust fund manager reviews the schedule of misstatements and instructs the
        trust fund manager to correct misstatements deemed material by the reviewing trust fund
        manager in the appropriate accounting period.



                                               62
FMB issues financial statement packages prior to the completion of the monthly financial
reconciliation package. Should the reconciliation process identify a material misstatement in the
previously issued financial statement package, FMB corrects the misstatement, revises the
financial statement package, and transmits the revised financial statement package to Fiscal
Service Web Support for posting on the TreasuryDirect website.

Unemployment Trust Fund

At the end of the monthly processing cycle, the trust fund manager provides the Department of
Labor with two files, one contains the activity for the month, and the other contains the account
balances at the end of the month. On a daily basis, FMB creates electronic files of the individual
UTF account statements, transaction statements, and Federal activity reports (EUCA. FUA, and
FECA activity). The text reports are reviewed to ensure that the correct number of files are
included and then posted to the TreasuryDirect’s website.

Complementary Program Entity Controls

Program Entities should establish controls to:

   Review the monthly trust fund financial reports to ensure that transactions are recorded
    accurately.

   Review their UTF account statements, transaction statements, and Federal activity reports to
    ensure that transactions are recorded accurately.

   Verify that transactions are recorded accurately into Federal Agencies’ Centralized Trial
    Balance System (FACTS II).

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund manager and reviewing trust fund manager
   generate reports and determined that reports were generated in accordance with the
   procedures.

2. For a selection of months, inspected:

           Evidence of the review of the trust fund financial statement package by the reviewing
            trust fund manager and determined that: the InvestOne accounting system and Oracle
            trial balance ending balances agreed, the general ledger account reconciliations were
            prepared, the budgetary to proprietary account reconciliations were prepared, the
            Schedules of Assets and Liabilities and Schedules of Activity agreed to the trial
            balance reports, the schedule of misstatements was prepared, and the reviewing trust
            fund manager reviewed the reports for accuracy.

           Reconciliation of the month-end Fund Balance with Treasury from the Invest One
            accounting system trial balance report to the CARS Account Statement and
            determined that a trust fund manager completed the reconciliations and the reviewing
            trust fund manager reviewed and approved the reconciliations as indicated on the
            monthly financial review checklist.

           Monthly reconciliations from the InvestOne trial balance to the FIB-provided
            Monthly Statement of Account and determined that the reconciliations were

                                                 63
           completed, and reviewed and approved by the reviewing trust fund manager, and that
           any differences were resolved.

3. For a selection of weeks, inspected evidence of the review of the individual UTF account
   statements, transaction statements, and Federal activity reports (EUCA and FECA) by the
   trust fund manager and determined that the trust fund manager reviewed the reports for
   accuracy.

4. For a selection of months, inspected the reconciliation of the non-investment receipts and
   disbursements from the InvestOne accounting system CTA/SF-224 report to the CTA/SF-224
   worksheet and determined that the reviewing trust fund manager reviewed the reconciliation
   and compared the total transactions from IPAC reports to the total from the CTA/SF-224
   worksheet.

No exceptions noted.




                                             64
Control Objective 16 – Unemployment Trust Fund Title XII of the Social Security Act
Advances Program

Controls provide reasonable assurance that state borrowing transactions are authorized,
processed, and recorded accurately in the proper period.

Description of Controls

FMB has documented policies and procedures for staff to follow for the processing of the Title
XII Advance transactions.

Pursuant to Title XII of the Social Security Act, certain Program Entities may borrow funds from
the Federal Unemployment Account (FUA) when they have exhausted all available funding in
their account. The following summarizes the related borrowing, repayment, and interest
processes.

Advances to the States / Borrowing Activity

The U.S. Department of Labor (DOL) authorizes and coordinates the amounts that certain states
may borrow. For each three month authorization period, DOL sends an authorization letter to
FMB indicating the amount that the Program Entity may borrow. During the twelve month
period ended July 31, 2012, twenty-nine were authorized to borrow. This number is subject to
change as more states are authorized for funding. The states withdraw repayable advances from
the FUA through ASAP.

Each day, Program Entities determine the amount they want to borrow by reviewing their account
in ASAP. Program Entities must enter their borrowing requests into ASAP by 6:00 pm EST.

During the morning of the next business day, ASAP transmits a file to InvestOne that contains all
of the borrowing transactions. The trust fund manager compares InvestOne’s FUA Pending
Report that summarizes pending borrowing request the ASAP transaction report.

After the trust fund manager verifies that the requested borrowing is within the authority
established by the DOL and reconciles these reports, the trust fund manager posts the transactions
to the states’ accounts within InvestOne and provides the reports to the reviewing trust fund
manager. The reviewing trust fund manager reviews and approves the reports. Any differences
are investigated and resolved.

Repayment Activity

As discussed in Control Objective 9, the Program Entities deposit unemployment tax receipts into
their UTF accounts. FMB processes repayments from Program Entities' accounts to the FUA as
directed by the borrowing Program Entities and the DOL. These repayment entries are reviewed
and initialed by the reviewing trust fund manager as part of the daily review of the
Unemployment Trust Fund Daily Transaction Support Package (DTSP).

Interest Terms

If a Program Entity has an outstanding loan balance at the end of the fiscal year, the Program
Entity is liable for payment of interest on the funds it borrowed during the fiscal year. Interest
owed by borrowing states is calculated in a spreadsheet that is populated from InvestOne
borrowing and repayment balances. The trust fund manager reviews the borrowing Program

                                               65
Entity account balances at year-end to ensure that interest is appropriately calculated for any state
still in borrowing status.

Complementary Program Entity Controls

Program Entities should establish controls to:

   Ensure that the systems they use to support on-line access to the ASAP are approved, tested,
    and properly monitored (UTF only)

   Restrict ASAP access to authorized individuals (UTF only).

   Verify that borrowing requests are accurately entered into ASAP (UTF only).

   Verify that borrowing amounts are not in excess of the amount approved by the U.S.
    Department of Labor.

   Review the reports provided by FMB to ensure that borrowing, interest, and repayment
    transactions are recorded accurately.

Tests of Operating Effectiveness and Results of Testing

1. Inspected SOPs and observed the trust fund managers and reviewing trust fund managers
   process and record state borrowing transactions and determined that the transactions were
   processed in accordance with the procedures.

2. For a selection of days, inspected the Borrowing Report, ASAP transaction report, and
   authorized borrowing limits provided by DOL, and determined that the trust fund manager
   verified that the borrowing was within the authority established by DOL.

3. For a selection of days, inspected the reconciliation of the Borrowing Report to the ASAP
   transaction report and determined that the reviewing trust fund manager reviewed and
   approved the reconciliations.

4. For a selection of days, inspected a selection of ASAP transaction reports, Borrowing
   Reports, and the InvestOne accounting system and determined that the borrowings were
   processed and recorded accurately in the proper period.

5. For a selection of states authorized to borrow, inspected InvestOne accounting system reports
   and determined that the Program Entity in borrowing status did not earn any daily income
   when it was allocated.

6. For a selection of days, inspected the sign-off on the DTSP evidencing the trust fund
   manager’s review of accounts to ensure receipts were applied as repayments and determined
   that the reviews were documented.

7. For a selection of states still in borrowing status, inspected documentation of the trust fund
   manager’s review of the borrowing Program Entity account balances at year-end and
   determined that the trust fund manager reviewed the accounts for the accurate calculation of
   interest.

No exceptions noted.
                                                 66
V.   OTHER INFORMATION PROVIDED BY THE
        BUREAU OF THE FISCAL SERVICE




                  67
CONTINGENCY PLANNING

System Back Up

The InvestOne accounting system has a contingency plan managed by the Fiscal Accounting
Operations (FAO) Program Support Group (PSG), and Business Technology Division (BTD).
There is a formal Division of Federal Investments (DFI) Business Continuity Plan (BCP), which
is part of a larger BCP for Fiscal Accounting Operations (FAO) and the Fiscal Service Continuity
of Operations Plan (COOP). The Funds Management Branch (FMB) performs tests on all
essential daily InvestOne accounting system functions.13

The ISS performs backups of the InvestOne accounting system on a regular schedule. ISS retains
the backup tapes according to a pre-set schedule14 at an offsite facility. ISS stores one copy in the
production tape library, and the other copy is shipped to an offsite facility. Long-term storage of
tapes is provided through a contract with an offsite storage facility. If a backup tape needs to be
restored, the request will be made from the Business Technology Division’s System Support
Branch (SSB). ISS will then load the backup tape.

Continuity of Operations

A fire alarm and sprinkler system that is managed, maintained, and tested by the building
management protects the data center15. Sprinkler heads are located in the ceiling of each room of
the buildings. This is a wet pipe (always charged with water) system with individual heads that
discharge water. 16

The DFI Business Continuity Plan (BCP) calls for resumption of operations and critical
applications of essential functions within a pre-set time frame17. The InvestOne accounting
system has been classified as a critical application.

As part of the DFI BCP, should the facility supporting InvestOne accounting system and
FedInvest become unavailable, designated FMB personnel will relocate to reestablish their daily
operations. When applicable, Fiscal Service will revert to manual procedures until the FIT-MF
and InvestOne accounting system are fully recovered.




13
   FMB performs emergency telework tests on all essential InvestOne functions a minimum of quarterly. The focus of these tests is to
provide assurances that connectivity can be made and these functions will continue with minimum interruption during any emergency
that may occur with or without warning.
14
    ISS uses IBM's Tape Management System to perform backups daily at 6:00 PM ISS retains the first backup for 15 days.
15
   Alarms are active 24 hours a day, 7 days a week, and are tied in to the local fire department over phone lines for spontaneous
notification.
16
    In the event the main building, where the InvestOne accounting system is run, becomes inoperable, mainframe operations would be
relocated to a contingency facility in accordance with the ISS data center recovery plan. This facility employs a warm site strategy for
recovery of mainframe operations. ISS has contracted with the Financial Management Service to provide mainframe equipment for
this site.
17
   4 hour time frame


                                                                  68
